App. 1
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 18-3595
-----------------------------------------------------------------------

RAYMOND HOLLOWAY, JR.
v.
ATTORNEY GENERAL UNITED STATES OF
AMERICA; DEPUTY DIRECTOR BUREAU
OF ALCOHOL TOBACCO FIREARMS &
EXPLOSIVES; DIRECTOR FEDERAL BUREAU OF
INVESTIGATION; UNITED STATES OF AMERICA,
Appellants
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. No. 1-17-cv-00081)
District Judge: Hon. Christopher C. Conner
-----------------------------------------------------------------------

Argued October 2, 2019
-----------------------------------------------------------------------

Before: SHWARTZ, FUENTES, and FISHER, Circuit
Judges.
(Filed: January 17, 2020)

App. 2
-----------------------------------------------------------------------

OPINION
-----------------------------------------------------------------------

Joseph H. Hunt
Assistant Attorney General
David J. Freed
United States Attorney
Mark B. Stern
Thais-Lyn Trayer [ARGUED]
Tyce R. Walters
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Civil Division, Room 7712
Washington, D.C. 20530
Counsel for Appellants United States of
America, Attorney General United States of
America, Deputy Director Bureau of Alcohol
Tobacco Firearms & Explosives, and Director
Federal Bureau of Investigation
Adam J. Kraut
Joshua Prince [ARGUED]
Prince Law Offices
646 Lenape Road
Bechtelsville, PA 19505
Counsel for Appellee Raymond Holloway, Jr.

App. 3
Joseph G. S. Greenlee
Firearms Policy Coalition
1215 J Street, 17th Floor
Sacramento, CA 95814
Counsel for Amici Curiae Firearms Policy
Coalition Inc, Firearms Policy Foundation,
Madison Society Foundation Inc, and Second
Amendment Foundation Inc.
SHWARTZ, Circuit Judge.
Drunk driving is a dangerous and often deadly
crime. “Approximately a quarter million people are injured annually in alcohol-related crashes,” Begay v.
United States, 553 U.S. 137, 156-57 (2008) (Alito, J.,
dissenting), and the number “who are killed . . . by
drunk drivers is far greater than the number of murders committed” during many other violent crimes, id.
at 157 & n.4. “[F]rom 1982 to 2016, alcohol-related accidents took roughly 10,000 to 20,000 lives in this Nation every single year. In the best years, that would add
up to more than one fatality per hour.” Mitchell v. Wisconsin, 139 S. Ct. 2525, 2536 (2019) (emphasis omitted)
(citations omitted).
Today, we consider whether Pennsylvania’s driving under the influence (“DUI”) law, which makes a
DUI at the highest blood alcohol content (“BAC”) a
first-degree misdemeanor that carries a maximum
penalty of five years’ imprisonment, see 18 Pa. Cons.
Stat. Ann. § 1104; 75 Pa. Cons. Stat. Ann. §§ 3802(c),
3803(b)(4), constitutes a serious crime that requires
disarmament. Plaintiff Raymond Holloway, Jr., was
convicted under this statute, and by the terms of 18

App. 4
U.S.C. § 922(g)(1), he is prohibited from possessing a
firearm. Holloway claims this prohibition violates his
Second Amendment rights. The District Court agreed
and enjoined applying § 922(g)(1) to him. Because Holloway was convicted of a serious crime as contemplated
by Binderup v. Attorney General United States of America, 836 F.3d 336 (3d Cir. 2016) (en banc), applying
§ 922(g)(1) to him does not offend the Second Amendment. Therefore, we will reverse the District Court’s
order and remand for the entry of judgment in favor of
the Government.
I
In 2002, Holloway was convicted of a DUI at the
highest BAC, but the charge was dismissed upon his
completion of an accelerated rehabilitation program.
In 2005, Holloway was again arrested for driving under the influence and registered a BAC of 0.192%. Holloway pled guilty to violating 75 Pa. Cons. Stat. Ann.
§ 3802(c) for driving under the influence at the highest
BAC (greater than 0.16%). He received a sentence of
60 months’ “Intermediate Punishment,” including 90days’ imprisonment that allowed him work release, a
$1,500 fine, and mandatory drug and alcohol evaluation.
In 2016, Holloway sought to purchase a firearm
but was unable to do so because of his disqualifying
DUI conviction. Holloway sued the Attorney General of
the United States and other federal officials (the “Government”) in the United States District Court for the

App. 5
Middle District of Pennsylvania, claiming that
§ 922(g)(1) is unconstitutional as applied to him and
seeking declaratory and permanent injunctive relief.
The parties filed cross-motions for summary judgment.
The District Court granted Holloway’s motion for
summary judgment, awarded him a declaratory judgment, and entered a permanent injunction barring the
Government from enforcing § 922(g)(1) against him.
Holloway v. Sessions, 349 F. Supp. 3d 451, 463 (M.D.
Pa. 2018). Applying Binderup, the Court held that
§ 922(g)(1) is unconstitutional as applied to Holloway
because (1) Holloway’s DUI offense was a non-serious
crime that has not historically been a basis for the denial of Second Amendment rights, id. at 459-60, and (2)
the Government failed to demonstrate that disarmament of individuals like Holloway would promote the
public safety, particularly given his decade of crimefree behavior, id. at 460-62. The Government appeals.

App. 6
II1
A
The sole issue on appeal is whether applying 1618
U.S.C. § 922(g)(1)2 to Holloway, which makes it unlawful for him to possess a firearm due to his prior conviction, violates his Second Amendment rights.
In District of Columbia v. Heller, the Supreme
Court held that the Second Amendment protects the
right of “law-abiding, responsible citizens to use arms
in defense of hearth and home.” 554 U.S. 570, 635
(2008). This right, however, “is not unlimited.” Id. at
626. Indeed, the Court cautioned that “nothing in [its]
opinion should be taken to cast doubt on longstanding
prohibitions on the possession of firearms by felons.”
1

The District Court had jurisdiction under 28 U.S.C. § 1331.
We have jurisdiction under 28 U.S.C. § 1291. Our review of a district court’s order granting summary judgment is plenary, Mylan
Inc. v. SmithKline Beecham Corp., 723 F.3d 413, 418 (3d Cir.
2013), and we view the facts and make all reasonable inferences
in the non-movant’s favor, Hugh v. Butler Cty. Family YMCA, 418
F.3d 265, 266-67 (3d Cir. 2005). Summary judgment is appropriate where “there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.” Fed. R.
Civ. P. 56(a). The moving party is entitled to judgment as a matter of law when the non-moving party fails to make “a sufficient
showing on an essential element of her case with respect to which
she has the burden of proof.” Celotex Corp. v. Catrett, 477 U.S.
317, 323 (1986).
2
Section 922(g)(1) makes it unlawful for any person convicted of “a crime punishable by imprisonment for a term over one
year” to possess a firearm. Excluded from this definition is any
crime “classified by the laws of the State as a misdemeanor and
punishable by a term of imprisonment of two years or less.” 18
U.S.C. § 921(a)(20)(B).

App. 7
Id. The Court described the felon ban as just one “example[ ]” of “presumptively lawful regulatory measures.”
Id. at 627 n.26.
Since Heller, we have been called upon to determine whether various laws unlawfully infringe the
Second Amendment. Some of these laws regulate who
can possess firearms, see, e.g., Beers v. Att’y Gen. U.S.,
927 F.3d 150, 155-56 (3d Cir. 2019) (ban on possession
by those adjudicated mentally defective or committed
to mental institution); Binderup, 836 F.3d 336 (ban on
possession by certain convicts). Other laws regulate
the type of firearms that may be possessed. See, e.g.,
Ass’n of N.J. Rifle & Pistol Clubs, Inc. v. Att’y Gen. N.J.
(N.J. Rifle), 910 F.3d 106 (3d Cir. 2018) (large capacity
magazines). In each instance, we examined the challenged law by applying the two-part test first articulated in United States v. Marzzarella, 614 F.3d 85 (3d
Cir. 2010). Under that test, we first “ask whether the
challenged law imposes a burden on conduct falling
within the scope of the Second Amendment’s guarantee.” Id. at 89. “If it does not, our inquiry is complete.”
Id. If it does, we move to the second step: we evaluate
the law under some form of heightened scrutiny. See
id. at 96-97.
After Marzzarella, we addressed a constitutional
challenge to § 922(g)(1) in United States v. Barton, 633
F.3d 168 (3d Cir. 2011). Barton recognized that
§ 922(g)(1) was one of the “presumptively lawful”
measures referenced in Heller, id. at 172, but that individuals could challenge § 922(g)(1) on an as-applied
basis, id. at 173. Barton, however, did not expressly

App. 8
apply Marzzarella’s two-step framework. Id. Rather,
Barton held that a challenger could rebut the presumption that § 922(g)(1) constitutionally applied to
him by “present[ing] facts about himself and his background that distinguish his circumstances from those
of persons historically barred from Second Amendment
protections.” Id. at 174. The “historically barred” class,
Barton concluded, was individuals “likely to commit violent offenses.” Id. at 173-74. Thus, Barton held that if
an individual could show that he posed no threat of future violence, then § 922(g)(1) could not constitutionally apply to him. Id. at 174.
We revisited Barton and as-applied challenges to
§ 922(g)(1) as an en banc Court in Binderup. Binderup
resulted in several opinions from fifteen judges: (1) an
opinion by Judge Ambro, joined in full by two judges
and joined additionally in part by four other judges; (2)
an opinion by Judge Hardiman, joined in full by four
judges, and which concurred in part with Judge Ambro
and concurred in the judgment; and (3) an opinion by
Judge Fuentes, joined by six judges (some of whom
joined parts of Judge Ambro’s opinion), which concurred in part, dissented in part, and dissented from
the judgment.
There are no specific rules for how to identify the
holdings and legal standards from split circuit opinions. We can, however, look to the rules we use to identify such standards in fractured Supreme Court
opinions, as set forth in Marks v. United States, 430

App. 9
U.S. 188 (1977), and its progeny.3 We need not conduct
an explicit Marks analysis of the Binderup opinions
here because we already recited its holdings, as expressed by Judge Ambro’s controlling opinion, in Beers,
927 F.3d at 155-56;4 see also N.J. Rifle, 910 F.3d at 130
(Bibas, J., dissenting) (describing Judge Ambro’s
Binderup opinion as the “controlling opinion”), and it
binds us.5 Mateo v. Att’y Gen. U.S., 870 F.3d 228, 231
3

Marks is often applied by judges who did not participate in
the opinion being reviewed. In this case, fourteen of the fifteen
judges who participated in Binderup remain on our Court and
know what it held and did not hold.
4
In Beers, we explained that at step one of Binderup, “a challenger ‘must (1) identify the traditional justifications for excluding from Second Amendment protections the class of which he
appears to be a member, and then (2) present facts about himself
and his background that distinguish his circumstances from those
of persons in the historically barred class.’ ” 927 F.3d at 155 (quoting Binderup, 836 F.3d at 346-47). “If a challenger passes these
two hurdles, ‘the burden shifts to the Government to demonstrate
that the regulation satisfies some form of heightened scrutiny[.]’ ”
Id. (quoting Binderup, 836 F.3d at 347). Beers further explained
that Binderup overruled Barton in large part and “[w]here the
historical justification for disarming felons was because they had
committed serious crimes, risk of violent recidivism was irrelevant, ‘and the seriousness of the purportedly disqualifying offense
is our sole focus throughout Marzzarella’s first step.’ ” Id. at 156
(quoting Binderup, 836 F.3d at 350) (emphasis omitted).
5
Although Beers did not explicitly conduct a Marks analysis,
Beers set forth the Binderup majority holdings. In Marks, the Supreme Court held that when “no single rationale explaining the
result enjoys the assent of five justices, the holding of the Court
may be viewed as that position taken by those Members who concurred in the judgment on the narrowest grounds.” 430 U.S. at
193 (internal quotation marks and citation omitted). Marks expresses one way to identify a holding from among separate opinions. The Supreme Court has adopted other approaches for

App. 10
n.6 (3d Cir. 2017) (prior panel’s precedential opinion
“binding on subsequent panels”); see also Jackson v.
Danberg, 656 F.3d 157, 165 n.10 (3d Cir. 2011) (applying a legal standard derived from a previous panel
opinion’s Marks analysis as the law of our Circuit).
Nevertheless, both Beers and Marks reveal the following relevant Binderup holdings agreed to by a majority of judges:
(1) Marzzarella’s two-step test—and not the test
articulated in Barton—governs Second Amendment
examining fractured opinions to identify the rule or rules a majority endorsed. See, e.g., United States v. Jacobsen, 466 U.S. 109,
117 n.12 (1984) (“[T]he disagreement between the majority and
the dissenters in [a previous] case with respect to the [application
of law to fact] is less significant than the agreement on the standard to be applied. . . .”); Moses H. Cone Mem’l Hosp. v. Mercury
Constr. Corp., 460 U.S. 1, 17 (1983) (“[T]he Court of Appeals correctly recognized that the four dissenting Justices and Justice
Blackmun formed a majority to require application of the Colorado River test.”). Whatever the test, “our goal in analyzing a fractured [opinion] is to find ‘a single legal standard . . . [that] when
properly applied, produce[s] results with which a majority of justices in the case articulating the standard would agree.’ . . . To
that end, we have looked to the votes of dissenting justices if they,
combined with the votes from plurality or concurring opinions,
establish a majority view on the relevant issue.” United States v.
Donovan, 661 F.3d 174, 182 (3d Cir. 2011) (quoting Planned
Parenthood of Se. Pa. v. Casey, 947 F.2d 682, 693 (3d Cir. 1991),
modified on other grounds, 505 U.S. 833 (1992)) (first alteration
added); see also Jacobsen, 466 U.S. at 115-17 (deriving the rule
established in a particular case by combining one opinion that
garnered two votes with the opinion of the four dissenters); B.H.
ex rel Hawk v. Easton Area Sch. Dist., 725 F.3d 293, 310 (3d Cir.
2013) (stating that we have “count[ed] even dissenting justices’
votes that, by definition,” did not concur in the judgment to identify a majority’s holding).

App. 11
challenges, 836 F.3d at 346-47 (Ambro, J.); id. at 387
(Fuentes, J.);6
(2) At Marzzarella step one for challenges to
§ 922(g)(1), we determine whether an individual has
committed a “serious” offense, and thus was an “unvirtuous citizen[ ]” who was historically barred from possessing firearms and fell out of the Second
Amendment’s scope, id. at 348-49 (Ambro, J.); id. at 387
(Fuentes, J.);7

6

Chief Judge Smith and Judge Greenaway, Jr., joined Judge
Ambro’s opinion in its entirety, for a total of three judges. ThenChief Judge McKee and Judges Vanaskie, Shwartz, Krause, Restrepo, and Roth joined Judge Fuentes for a total of seven judges.
Thus, any agreement between Judge Ambro’s and Judge Fuentes’
opinions represents agreement by ten judges.
Judges Fuentes, Vanaskie, Krause, and Roth also “expressly”
joined the portions of Judge Ambro’s opinion laying out the framework for as-applied challenges, for a total of seven judges.
Binderup, 836 F.3d at 339 n.1 (Ambro, J.); id. at 387 n.72
(Fuentes, J.). Judges McKee, Shwartz, and Restrepo did not “expressly” join Judge Ambro’s opinion “because they reject[ed] the
notion that the Marzzarella framework can be reconciled with any
aspect of Barton’s as-applied Second Amendment analysis, which
they would overrule entirely.” Id. at 339 n.1 (Ambro, J.). Thus,
ten Binderup judges rejected Barton and held that Marzzarella’s
framework governs as-applied challenges.
7
Although Judge Ambro, joined by two judges, disagreed
with Judge Fuentes, joined by six judges, over “how to decide
whether any particular crime is serious enough” to warrant disarmament, 836 F.3d at 388 (Fuentes, J.) (emphasis omitted), a
total of ten judges agreed that the correct test at step one for challenges to § 922(g)(1) is whether the offense is “serious,” not
whether the offense is violent, and thus overruled Barton’s focus
on violence for this inquiry.

App. 12
(3) Barton’s focus on whether the challenger’s
crime was violent or whether the challenger poses a
threat of violence is overruled, id. at 348-49 (Ambro,
J.); id. at 387 n.72 (Fuentes, J.);
(4) a challenger, otherwise barred from possession by § 922(g)(1), can make a factual showing that he
falls outside of the historically barred class, id. at 347
& n.3, 349 (Ambro, J.); id. at 365-67 (Hardiman, J.);8
(5) intermediate scrutiny applies at Marzzarella
step two, id. at 353 (Ambro, J.); id. at 396-97 (Fuentes,
J.).9

8

Judges Fisher, Chagares, Jordan, and Nygaard joined
Judge Hardiman’s opinion for a total of five judges.
9
Our dissenting colleague agrees that a majority in
Binderup: (1) rejected the idea that the Second Amendment excludes only those who commit violent offenses and that, because
that majority adopted the “virtuous citizenry” theory of serious
offenses, the Second Amendment excludes “any person who has
committed a serious criminal offense, violent or nonviolent,” Dissenting Op. at 2; Binderup, 836 F.3d at 348 (Ambro, J.); id. at 38891 (Fuentes, J.); (2) held that we evaluate § 922(g)(1) under intermediate scrutiny, not strict scrutiny, Dissenting Op. at 24;
Binderup, 836 F.3d at 353 (Ambro, J.); id. at 398 (Fuentes, J.);
and (3) held that Barton was overruled to the extent it suggested
that (a) the Second Amendment excludes only those who commit
violent offenses, id. at 348-49 (Ambro, J.); id. at 388-91 (Fuentes,
J.), (b) “the passage of time or evidence of rehabilitation will restore the Second Amendment rights of people who committed serious crimes,” id. at 349 (Ambro, J.); id. at 339 n.1, or (c) that strict
scrutiny rather than intermediate scrutiny applies at step two of
the Marzzarella framework, id. at 353, id. at 398 (Fuentes, J.);
Dissenting Op. at 2, 6, 24.

App. 13
Thus, as we said in Beers, 927 F.3d at 155,
Binderup held that “the two-step Marzzarella framework controls all Second Amendment challenges, including as-applied challenges to § 922(g)(1),” 836 F.3d
at 356 (Ambro, J.). At step one, the challenger must
“identify the traditional justifications for excluding
from Second Amendment protections the class of which
he appears to be a member[.]” Id. at 347. When the
class at issue is historically excluded convicts, as here
and in Binderup, the challenger must show that he was
not previously convicted of a serious crime. Id. at 350.
A crime is “serious” based on circumstances related to
the offense, id. at 350-53, and so evidence of a challenger’s rehabilitation or his likelihood of recidivism is
not relevant, id. at 349-50. There are no fixed rules for
determining whether an offense is serious but various
factors may be informative including, but not limited
to, whether the crime poses a danger or risk of harm to
self or others, whether the crime involves violence or
threatened violence, the classification of the offense,
the maximum penalty, the penalty imposed, and how
other jurisdictions view the crimes. See id. at 351-52.10
10

In Binderup, Judge Ambro considered: (1) whether the
crime of conviction was classified as a misdemeanor or felony, (2)
whether the criminal offense involves violence or attempted violence as an element, (3) the sentence imposed, and (4) whether
there is a cross-jurisdictional consensus as to the seriousness of
the crime. See 836 F.3d at 351-52.
No majority of judges in Binderup agreed on how to determine whether a particular offense is serious. That said, we have
viewed, albeit in a non-precedential opinion, Judge Ambro’s factors as providing data points for determining whether a challenger’s prior conviction was serious, King v. Att’y Gen. U.S., 783

App. 14
If a challenger makes a “strong” showing that the regulation burdens his Second Amendment rights and
that he has not committed a “serious” crime, and thus
is different from those historically barred from possessing firearms, then “the burden shifts to the Government to demonstrate that the regulation satisfies”
intermediate scrutiny. Id. at 347.
We apply this framework to determine whether
§ 922(g)(1) as applied to Holloway violates his Second
Amendment rights.
B
At the first step of the analysis, we must determine whether the application of § 922(g)(1) burdens
Holloway’s Second Amendment rights by considering
the traditional justifications for denying certain criminals Second Amendment rights and then examining
whether Holloway’s offense is disqualifying. We “presume the judgment of the legislature is correct and
treat any crime subject to § 922(g)(1) as disqualifying
unless there is a strong reason to do otherwise.” Id. at
351.

F. App’x 111, 113-14 (3d Cir. 2019), and we agree with the dissent
that a multifactor test should be used to identify whether an offense is serious, at least as to misdemeanor offenses, Dissenting
Op. at 6.

App. 15
1
As previously stated, Heller embraced the
“longstanding prohibitions on the possession of firearms by felons.” 554 U.S. at 626. Because Holloway’s
DUI misdemeanor conviction carries a maximum penalty of five years’ imprisonment, it is deemed a disqualifying felony under § 922(g)(1). Thus, the application of
§ 922(g)(1) is presumptively lawful. See Binderup, 836
F.3d at 348 (Ambro, J.).
2
We next examine whether Holloway’s crime was
nonetheless “not serious enough to strip [him] of [his]
Second Amendment rights.” Id. at 351. Under
Binderup, “a person who did not commit a serious
crime retains his Second Amendment rights,” because
“a non-serious crime does not demonstrate a lack of
‘virtue’ that disqualifies an offender from exercising
those rights.” Id. at 349.
A crime that presents a potential for danger and
risk of harm to self and others is “serious.”11 See
11

The dissent asserts that our consideration of an offense’s
dangerousness steps too far from Barton. Dissenting Op. at 1617. Barton, however, has been overruled in nearly all respects.
Among other things, seven Binderup judges agreed that Barton
“defines too narrowly the traditional justification for why a criminal conviction may destroy the right to arms (i.e., it limits felon
disarmament to only those criminals likely to commit a violent
crime in the future) and, by extension, defines too broadly the
class of offenders who may bring successful as-applied Second
Amendment challenges to § 922(g)(1) (i.e., it allows people convicted of serious crimes to regain their right to arms).” 836 F.3d

App. 16

at 347 n.3 (Ambro, J.). Three other judges would have overruled
Barton entirely. Id. at 339 n.1. Thus, ten judges rejected the dissent’s argument that our considerations of who falls within the
historically barred class must be tied to Barton, and in particular,
“the presence of force or violence in the challenger’s conduct.” Dissenting Op. at 16-17.
Instead of Barton’s exclusive focus on violence, Binderup instructs that the Founders sought to permit only the virtuous citizen to possess a firearm. The historical record tells us that those
who present a risk of danger lack virtue and the Founders considered danger in evaluating who had the right to bear arms. See
Binderup, 836 F.3d at 348-49 (Ambro, J.); id. at 389-91 (Fuentes,
J.).
First, The Address and Reasons of Dissent of the Minority of
the Convention of the States of Pennsylvania to Their Constituents (the “Address”), “a ‘highly influential’ ‘precursor’ to the Second Amendment,” Binderup, 836 F.3d at 349 (Ambro, J.) (quoting
United States v. Skoien, 614 F.3d 638, 640 (7th Cir. 2010) (en
banc) and Heller, 554 U.S. at 604), stated “no law shall be passed
for disarming the people or any of them unless for crimes committed, or real danger of public injury from individuals,” United
States v. Bena, 664 F.3d 1180, 1184 (8th Cir. 2011) (emphasis
omitted) (quoting the Address, reprinted in Bernard Schwartz, 2
The Bill of Rights: A Documentary History 662, 665 (1971)); see
also Binderup, 836 F.3d at 349 (quoting same passage). While the
dissent proposes a narrow reading of the broad language “real
danger of public injury,” Dissenting Op. at 13-15, we precedentially interpreted the Address to indicate that the legislature
could historically disarm those “considered dangerous to themselves and/or to the public at large,” Beers, 927 F.3d at 158. The
dissent’s read is thus foreclosed by our precedent.
Second, Samuel Adams’ proposed language for the Second
Amendment would have expressly limited the right to “peaceable
citizens.” Binderup, 836 F.3d at 367 (Hardiman, J.) (quoting Journal of Convention: Wednesday February 6, 1788, reprinted in Debates and Proceedings in the Convention of the Commonwealth of
Massachusetts Held in the Year 1788, at 86 (Boston, William
White 1856)) (emphasis omitted). In Adams’ time, “peaceable”
meant “free from tumult;” “quiet; undisturbed;” “[n]ot violent; not

App. 17
“Serious,” Black’s Law Dictionary (11th ed. 2019) (defining “serious” as, among other things, “dangerous; potentially resulting in death or other severe
consequences”). “There is no question that drunk driving is a serious and potentially deadly crime. . . . The
imminence of the danger posed by drunk drivers exceeds that at issue in other types of cases.” Virginia v.
Harris, 558 U.S. 978, 979-80 (2009) (Mem.) (Roberts,
C.J., dissenting from denial of writ of certiorari); see
Mitchell, 139 S. Ct. at 2541 (Sotomayor, J., dissenting)
(“[D]runk driving poses significant dangers that
[states] must be able to curb.”); Begay, 553 U.S. at 141
(“Drunk driving is an extremely dangerous crime.”).
All three branches of the federal government have
recognized as much. The Supreme Court has described
individuals “who drive with a BAC significantly above
the . . . limit of 0.08% and recidivists” as “the most dangerous offenders.” Birchfield v. North Dakota, 136
bloody;” “[n]ot quarrelsome; not turbulent.” 1 Samuel Johnson, A
Dictionary of the English Language (5th ed. 1773). Relatedly,
“[b]reaches of the peace comprise[d] not only cases of actual violence to the person of another, but any unlawful acts, tending to
produce an actual breach of the peace; whether the peace of the
public, or an individual, be in fact disturbed or not.” Pearce v. Atwood, 13 Mass. 324, 332 (1816). From these sources, judges have
concluded that “founding-era legislatures categorically disarmed
groups whom they judged to be a threat to the public safety.” Kanter v. Barr, 919 F.3d 437, 458 (7th Cir. 2019) (Barrett, J., dissenting). Thus, the Pennsylvania and Massachusetts proposals show
that any right to bear arms did not extend to those who posed a
danger to the public. These historical sources therefore support
considering risk of danger in determining whether an offense constitutes a serious crime that deprives an offender of Second
Amendment protection.

App. 18
S. Ct. 2160, 2179 (2016). Congress and the Executive
Branch have also recognized the dangers posed by
drunk driving. Congress requires states to implement
highway safety programs “to reduce injuries and
deaths resulting from persons driving motor vehicles
while impaired by alcohol.” 23 U.S.C. § 402(a)(2)(A)(iii).
The Secretary of Transportation conditions the receipt
of certain highway-related funds on states’ implementation of programs with impaired driving countermeasures that will “effective[ly]” “reduce driving under
the influence of alcohol.” § 405(a)(3), (d). Thus, all
branches of the federal government agree that DUIs
are dangerous, and those who present a danger may be
disarmed.
While use or the threatened use of violence is not
an element of a DUI offense, see 75 Pa. Cons. Stat. Ann.
§ 3802(c) (providing “[a]n individual may not drive, operate or be in actual physical control of the movement
of a vehicle after imbibing a sufficient amount of alcohol such that the alcohol concentration in the individual’s blood or breath is 0.16% or higher”), a showing of
violence is not necessary for a crime to be deemed serious, see, e.g., Binderup, 836 F.3d at 348 (Ambro, J.);
id. at 390-91 (Fuentes, J.); Medina v. Whitaker, 913 F.3d
152, 160 (D.C. Cir. 2019) (holding that fraud, by lying
on mortgage documents, is “a serious crime”). Thus, the
fact that an offense does not include the use or threatened use of violence does not mean it is not serious.
Moreover, though labeled as a first-degree misdemeanor, Holloway’s DUI crime carries a three-month
mandatory minimum prison term and a five-year

App. 19
maximum prison term. See 18 Pa. Cons. Stat. Ann.
§ 1104; 75 Pa. Cons. Stat. Ann. § 3803(b)(4); 75 Pa.
Cons. Stat. Ann. § 3804(c)(2). While “generally the misdemeanor label . . . in the Second Amendment context,
is . . . important” and is a “powerful expression” of the
state legislature’s view, it is not dispositive. Binderup,
836 F.3d at 352. First, not only is the distinction “minor
and often arbitrary,” Tennessee v. Garner, 471 U.S. 1, 14
(1985); see also Burgess v. United States, 553 U.S. 124,
132 (2008), some states do not use the distinction at
all, see, e.g., N.J. Stat. Ann. § 2C:1-4 (dividing offenses
into “crimes,” “disorderly persons offenses,” and “petty
disorderly persons offenses”); § 2C:43-1(a) (dividing
“crimes” further into four degrees); State v. Doyle,, 200
A.2d 606, 613 (N.J.. 1964) (“Criminal codes in New Jersey have not utilized the felony-misdemeanor nomenclature or classification of the English common law.”).
Second, “numerous misdemeanors involve conduct
more dangerous than many felonies.” Garner, 471 U.S.
at 14. Indeed, giving dispositive weight to the felony/misdemeanor nomenclature for determining
whether an offense is serious would mean that the following offenses, labeled under Pennsylvania law as
misdemeanors and carrying a five-year maximum penalty (the maximum Holloway faced), 18 Pa. Cons. Stat.
Ann. § 1104(1), would not qualify as serious crimes:
involuntary manslaughter, § 2504(b), terrorism,
§ 2717(b)(1), assaulting a child, § 2701(b)(2), abusing a
care-dependent person, § 2713.1(b)(1), making terroristic threats, § 2706(d), threatening to use weapons of
mass destruction, § 2715(b)(1), shooting a fire bomb
into public transportation, § 2707(a), indecent assault

App. 20
by forcible compulsion, § 3126(a)(2), concealing the
murder of a child, § 4303(a), luring a child into a motor
vehicle or structure, § 2910(a), restraining a person “in
circumstances exposing him to risk of serious bodily
injury,” § 2902(a)(1), and stalking, § 2709.1(c)(1). At
bottom, Heller emphasized that the Second Amendment right belongs to “law-abiding, responsible citizens,” 554 U.S. at 635, and whether labeled a felon or
misdemeanant, those who commit serious crimes are
not “the kinds of ‘law-abiding’ citizens whose rights
Heller vindicated,” Binderup, 836 F.3d at 392 (Fuentes,
J.).
Furthermore, the maximum penalty that may be
imposed often reveals how the legislature views an offense.12 Put succinctly, “the maximum possible
12

In addition to ascribing high value to the offense’s felony/
misdemeanor label, the dissent favors focusing on the actual penalty imposed. While the penalty imposed may provide some insight into how a sentencing judge may have viewed an offender,
it does not necessarily reflect how the offense itself is viewed.
Binderup step one focuses on the offense and not the offender. See
836 F.3d at 349-50 (Ambro, J.); id. at 388 (Fuentes, J.). Because
the actual sentence imposed can be influenced by many factors,
such as cooperation, U.S.S.G. § 5K1.1, acceptance of responsibility, U.S.S.G. § 3E1.1, and offender-related variances, 18 U.S.C.
§ 3553, the actual penalty imposed does not necessarily show that
the crime was not “serious.” Instead, the maximum punishment
is a more appropriate data point because it provides insight into
how a state legislature views a crime—not how a sentencing judge
views an individual. See Lewis v. United States, 518 U.S. 322, 32526 (1996) (noting that an offense’s penalty “reveals the legislature’s judgment about the offense’s severity”); id. at 328 (noting
that the maximum punishment is an “objective indication of the
seriousness with which society regards the offense”); Binderup,
836 F.3d at 351-52. For these reasons, it is proper to consider the

App. 21
punishment is certainly probative of a misdemeanor’s
seriousness.” Id. at 352 (Ambro, J.).13 “[T]he category of
serious crimes changes over time as legislative judgments regarding virtue evolve,” id. at 351, and here,
the Pennsylvania legislature has demonstrated an evolution in judgment. Pennsylvania’s DUI laws were
amended in 2003 when state legislators observed that
“[t]oo many people have been injured and killed on our
highways,” H.R. Legis. Journal, 187th Gen. Assemb.,
Reg. Sess. 1443 (Pa. 2003) (statement of Rep. Turzai),
and unlike in other states, which saw an eleven percent decrease in deaths caused by drunk drivers, such
deaths “continue to rise” in Pennsylvania with a five
percent increase, H.R. Legis. Journal, 187th Gen. Assemb., Reg. Sess. 1444 (Pa. 2003) (statement of Rep.
Harper); S. Legis. Journal, 187th Gen. Assemb., Reg.
Sess. 981 (Pa. 2003) (statement of Sen. Williams). At
the time of the amendment, thirteen individuals were
maximum penalty an offender faces, and not simply the actual
punishment imposed or whether the offense is designated as a
misdemeanor or felony, to determine whether an offense is
properly viewed as “serious.”
13
The dissent is mistaken to say that a majority in Binderup
rejected consideration of a maximum penalty in favor of the felony/
misdemeanor label. Judge Ambro’s opinion for three judges reasoned that “the maximum possible punishment is certainly probative of a misdemeanor’s seriousness” under the first factor. 836
F.3d at 352 (Ambro, J.). Seven judges stated that any crime which
qualifies for § 922(g)(1) is serious. Id. at 388 (Fuentes, J.). That
means that those seven judges would conclude that the penalty
Holloway faced shows his offense is serious regardless of its misdemeanor classification. Combining the views of Judge Ambro’s
and Judge Fuentes’ opinions, a majority of the Binderup court rejected the dissent’s view.

App. 22
killed every two weeks in Pennsylvania from alcoholrelated accidents. H.R. Legis. Journal, 187th Gen. Assemb., Reg. Sess. 1445 (Pa. 2003) (statement of Rep.
Harper). “[M]ore than half of all fatal alcohol-related
accidents [were] caused by hardcore drunken drivers,
those people whose BACs are .16 or above,” H.R. Legis.
Journal, 187th Gen. Assemb., Reg. Sess. 1444 (Pa.
2003) (statement of Rep. Harper), and “one-third of
drunk driving arrests involve[d] repeat offenders,” S.
Legis. Journal, 187th Gen. Assemb., Reg. Sess. 981 (Pa.
2003) (statement of Sen. Williams). To address this
“very serious matter,” H.R. Legis. Journal, 187th Gen.
Assemb., Reg. Sess.1445 (Pa. 2003) (statement of Rep.
Harper), the legislature “provid[ed] for tough civil and
criminal penalties together with mandatory treatment,” H.R. Legis. Journal, 187th Gen. Assemb., Reg.
Sess. 1443 (Pa. 2003) (statement of Rep. Turzai), to
“mak[e] it clear that if you are under the influence of
alcohol or drugs and behind the wheel in Pennsylvania, you will be punished,” H.R. Legis. Journal, 187th
Gen. Assemb., Reg. Sess. 1445 (Pa. 2003) (statement of
Rep. Harper). Therefore, despite the misdemeanor label, Pennsylvania’s decision to impose a mandatory
minimum jail term and a maximum penalty of up to
five years’ imprisonment for a second DUI at the highest BAC reflects the seriousness of the offense.14
14

As one district court analyzing an as-applied challenge under Binderup aptly observed,
juxtaposing the Pennsylvania legislature’s use of the
misdemeanor label with the legislature’s simultaneous
imposition of a substantial imprisonment term creates
an inherent contradiction: a five-year maximum prison

App. 23
Holloway received the statutory minimum sentence of 90 days’ imprisonment, 75 Pa. Cons. Stat. Ann.
§ 3804(c)(2), and although he was permitted to work,
he received a custodial sentence unlike either of the
challengers in Binderup. 836 F.3d at 352 (“With not a
single day of jail time, the punishments here reflect the
sentencing judges’ assessment of how minor the violations were.”). The legislature’s mandate that repeat
DUI offenders receive at least three months in jail reflects its judgment that such offenses are serious.
Pennsylvania is not alone in its decision to severely punish repeat DUI offenders. Mitchell, 139
S. Ct. at 2536 (“[M]any States . . . have passed laws imposing increased penalties for recidivists or for drivers
with a BAC level that exceeds a higher threshold.” (citations omitted)). Although most states do not impose
penalties for second DUI offenses that subject an offender to disarmament under § 922(g)(1), three states
impose penalties that subject misdemeanants who
commit a second DUI at a higher BAC to § 922(g)(1)
disarmament. Moreover, several states grade a second
DUI offense as a felony, thus triggering disarmament.
The absence of a cross-jurisdictional consensus
term suggests that [the plaintiff ’s] predicate offense is
serious, while the misdemeanor label simultaneously
undercuts the apparent severity by labeling the offense
a non-serious.
Laudenslager v. Sessions, 4:17-CV-00330, 2019 WL 587298, at *4
(M.D. Pa. Feb. 13, 2019) (discussing the classification and maximum sentence for receiving stolen property under Pennsylvania
law). We agree, and for the reasons described above, conclude that
the legislative history elucidates this contradiction.

App. 24
regarding the punishment for such conduct does not
mean the conduct is not serious. Indeed, states unanimously agree that DUIs are crimes subject to punishment.
Holloway suggests that his crimes cannot be so serious to justify federal disarmament and that to apply
§ 922(g)(1) to him would be overinclusive because
Pennsylvania law only disarms DUI offenders at their
third offense and permits them to apply for relief after
ten years. This argument ignores the gradations in
Pennsylvania’s DUI laws. In fact, Pennsylvania’s prohibition may be broader than § 922(g)(1) because it applies to all DUIs under 75 Pa. Cons. Stat. Ann. § 3802,
regardless of punishment. For example, an individual
who commits a third DUI, none at the high or highest
BAC, within a five-year period, is convicted of a seconddegree misdemeanor under 75 Pa. Cons. Stat. Ann.
§ 3803(a)(2) and subject to up to two years’ imprisonment under 18 Pa. Cons. Stat. Ann. § 1104(2). This
individual’s third DUI triggers Pennsylvania’s disarmament statute under 18 Pa. Cons. Stat. Ann.
§ 6105(c), but does not trigger § 922(g)(1) because it
falls within § 921(a)(20)(B)’s exception for state misdemeanors subject to a term of imprisonment of two
years or less. Holloway’s second DUI, however, subjects
him to the federal provision but not the state provision
because his offense was at the highest BAC, which
enhanced the grading of his offense to a first-degree
misdemeanor and exposed him to five years’ imprisonment. Thus, Pennsylvania’s disarmament statute captures offenders who may not face § 922(g)(1)’s bar and

App. 25
shows that Pennsylvania meant to disarm a broader
swath of offenders than § 922(g)(1).
Together, these considerations demonstrate that
Holloway’s DUI conviction constitutes a serious crime,
placing him within the class of “persons historically
excluded from Second Amendment protections.”
Binderup, 836 F.3d at 347. Because Holloway has not
met his burden at the first step of the analysis to overcome the presumptive application of § 922(g)(1),15
§ 922(g)(1) is constitutional as applied to him, and he
is not entitled to relief.16

15

At the first step of our framework, we do not consider Holloway’s arguments that he has not committed any offenses since
2005 or the letters he offered in support of his character because
“[t]here is no historical support for the view that the passage of
time or evidence of rehabilitation can restore Second Amendment
rights that were forfeited.” Binderup, 836 F.3d at 350, 354 n.7.
16
Because Holloway has not carried his burden at step one
to show he was not convicted of a serious offense, we need not
move on to step two to determine whether the statute as applied
to him survives intermediate scrutiny. We do note, however, that
our precedent is cautious in applying the intermediate scrutiny
test used in First Amendment cases. Compare N.J. Rifle, 910 F.3d
at 122 n.28 (stating that we do not incorporate “wholesale” First
Amendment jurisprudence when evaluating Second Amendment
challenges), with Dissenting Op. at 26 (advocating that we import
the Supreme Court’s test for commercial speech cases for Second
Amendment challenges to § 922(g)(1)). In addition, the dissent’s
application of intermediate scrutiny seemingly asks for a nearperfect fit between the challenged regulation and the objective,
rather than a “reasonable” fit. Marzzarella, 614 F.3d at 98 (stating that the “fit between the challenged regulation and the asserted objective be reasonable, not perfect”).

App. 26
III
For the foregoing reasons, we will reverse the order granting Holloway summary judgment, a declaratory judgment, and an injunction and remand for the
entry of judgment in favor of the Government.

FISHER, Circuit Judge, dissenting.
Driving under the influence of alcohol is undoubtedly a significant offense deserving of punishment. Yet
the principal question in this case is not whether that
offense is “serious” in the abstract or even as a matter
of ordinary understanding. “Seriousness” here has a
discrete legal meaning—that a conviction of the crime
deprives in perpetuity an individual of an enumerated
constitutional right. Under our precedent, these two
categories are distinct, and they must be treated as
such. Just because this question arises under the Second Amendment does not make our decision any less
weighty. If the circumstances were different, we would
assuredly consider very carefully the legal standard
for depriving an individual of his right to free speech.
The majority incorrectly, in my view, holds that Holloway has not carried his burden at Step One of the
two-step framework established in United States v.
Marzzarella, 614 F.3d 85 (3d Cir. 2010). Further, because I conclude that at Step Two, 18 U.S.C. § 922(g)(1)
as applied here does not survive intermediate scrutiny,
I must respectfully dissent.

App. 27
I
Under the Marzzarella framework, we first determine “whether the challenged law imposes a burden on
conduct falling within the scope of the Second Amendment’s guarantee.” 614 F.3d at 89. In particular, our
precedent requires the challenger to satisfy the two elements articulated in United States v. Barton, 633
F.3d 168 (3d Cir. 2011). He must “identify the traditional justifications for excluding from Second Amendment protections the class of which he appears to be a
member,” and then “present facts about himself and
his background that distinguish his circumstances
from those of persons in the historically barred class.”
Binderup v. Attorney Gen. United States of America,
836 F.3d 336, 347 (3d Cir. 2016) (en banc) (plurality
opinion) (citing Barton, 633 F.3d at 173-74); see id. at
366 (Hardiman, J., concurring in part and concurring
in the judgments); see also Beers v. Attorney Gen.
United States of America, 927 F.3d 150, 157 (3d Cir.
2019) (adopting this test for an as-applied challenge to
18 U.S.C. § 922(g)(4)).
In Binderup, ten judges on the fifteen-member en
banc court agreed that, in the context of as-applied
challenges to 18 U.S.C. § 922(g)(1), the “historically
barred class” is those who are “unvirtuous” because
they have “committed a serious criminal offense, violent or nonviolent.” 836 F.3d at 348 (plurality opinion);
see id. at 387 (Fuentes, J., concurring in part, dissenting in part, and dissenting from the judgments); see
also United States v. Donovan, 661 F.3d 174, 182 (3d
Cir. 2011) (noting that when this Circuit confronts a

App. 28
fractured decision, we “look[ ] to the votes of dissenting
[judges] if they, combined with votes from plurality or
concurring opinions, establish a majority view on the
relevant issue”). “Seriousness”—and by extension “unvirtuousness”—therefore has no independent legal significance. It is a gloss on the first part of the Barton
test—a way of describing the offenses committed by
those historically barred from possessing a firearm.1
The principal question before us today concerns
the application of Barton’s second prong in the
§ 922(g)(1) context—that is, how to evaluate whether a
challenger’s crime is sufficiently similar to crimes of
the historically barred class such that he is not entitled
to Second Amendment protection. The Binderup Court
divided on this issue, and, for the reasons detailed below, it remains an open question whether the multifactor test used in Binderup is binding precedent in our
Circuit—despite the lower courts’ application of it as
such. See, e.g., Williams v. Barr, 379 F. Supp. 3d 360,
370-74 (E.D. Pa. 2019); Holloway v. Sessions, 349
F. Supp. 3d 451, 457-60 (M.D. Pa. 2018). Nevertheless,
1

The majority suggests that any discussion of Barton is misplaced because that decision “has been overruled in nearly all respects.” Majority Op. at II.B.2 n.11. Yet, even if that is true, my
emphasis throughout this opinion is on a key respect in which it
has not been overruled: that a challenger to the application of
§ 922(g)(1) must distinguish his circumstances from those of the
historically barred class. The majority acknowledges that we
must still conduct such an analysis. See id. at II.A & n.4; see also
Binderup, 836 F.3d at 346-47 (plurality opinion) (“At step one of
the Marzzarella decision tree, a challenger must prove, per Barton, that a presumptively lawful regulation burdens his Second
Amendment rights.”).

App. 29
for reasons I also state, the test is an appropriate
means under our precedent of determining whether a
challenger’s crime is “serious” for purposes of Marzzarella Step One.
It is on this latter point—the application of the
multifactor test—that I break with my colleagues in
the majority. They interpret the test’s list of factors to
be non-exhaustive, Majority Op. at II.A, and so they
supplement their analysis of the factors with additional considerations. The majority appears to concede
that at least three of the four Binderup factors are in
Holloway’s favor, but still concludes that Holloway is
not entitled to Second Amendment protection. Although I agree that we are not bound to consider the
four factors exclusively, I disagree with my colleagues
in how they have applied and supplemented those factors. Simply because our precedent does not require us
to apply the four factors alone does not mean the determination of “seriousness” is open to any legal content. Our precedent does require us to follow the
doctrinal structure established in Barton and adopted
in Binderup. The “seriousness” inquiry is a comparison
of the challenger’s circumstances with those of the historically barred class. The majority’s analysis, in my
view, diverges too far from this requirement.
A
As it was applied in Binderup, the multifactor test
contains four factors for determining whether an individual’s crime is sufficiently “serious” to deprive him of

App. 30
his Second Amendment right. First, the court considers whether the state classifies the challenger’s disqualifying crime under § 922(g)(1) as a felony or a
misdemeanor. 836 F.3d at 351 (opinion of Ambro, J.).
Second, it determines whether the challenger’s crime
“had the use or attempted use of force as an element.”
Id. at 352. Third, also relevant is the sentence the challenger in fact received. Although the maximum possible sentence determines whether the crime triggers
the § 922(g)(1) bar, the crime’s “seriousness” for purposes of Second Amendment analysis turns, in part, on
the challenger’s actual punishment. Finally, the court
considers whether there exists a “cross-jurisdictional
consensus regarding the seriousness of the [challenger’s] crimes.” Id. Although this multifactor test
garnered the support of only three judges, it was declared “the law of our Circuit” under the Supreme
Court’s Marks rule. Id. at 356.
My review of our case law leads me to question
this conclusion. Courts and legal scholars disagree as
to the nature of the Marks rule and how it is to be applied.2In particular, there are multiple possible versions of the rule, and the Supreme Court’s most recent
statement on the matter acknowledged but declined to
resolve this debate. See Hughes v. United States, 138
S. Ct. 1765, 1771-72 (2018). On my assessment, the
multifactor test would be Circuit precedent under only

2

See Richard M. Re, Beyond the Marks Rule, 132 HARV. L.
REV. 1942, 1947-65 (2019) (providing a helpful survey of the
Marks debate).

App. 31
one of these versions,3 and our Court has not adopted
this interpretation of the Marks rule above the others.4
As a result, despite the declaration in Binderup to the
contrary, I do not think Marks requires us to treat the
multifactor test as controlling authority.5

3

This version holds that the concurring opinion representing
the views of the median judge constitutes binding precedent. See
Re, supra, at 1977 (citing MAXWELL L. STEARNS, CONSTITUTIONAL
PROCESS: A SOCIAL CHOICE ANALYSIS OF SUPREME COURT DECISION MAKING (2000)).
4
In fact, we have occasionally endorsed a different version of
the rule, which construes it to apply only to those views in an
opinion concurring in the judgment that constitute a logical subset of broader views expressed in another concurrence in the judgment. See, e.g., B.H. ex rel. Hawk v. Easton Area Sch. Dist., 725
F.3d 293, 310-13 (3d Cir. 2013) (en banc); Jackson v. Danberg, 594
F.3d 210, 222 (3d Cir. 2010) (“[T]he Marks framework applies
where one opinion is clearly ‘narrower’ than another, that is,
where one opinion would always lead to the same result that a
broader opinion would reach.”); Planned Parenthood of Se. Pa. v.
Casey, 947 F.2d 682, 693-94 (3d Cir. 1991), aff ’d in part and rev’d
in part on other grounds, 505 U.S. 833 (1992); see also Re, supra,
at 1980-84 (explaining this version of the Marks rule). Under this
version of the rule, the multifactor test would have to constitute
a logical subset of the views expressed in Judge Hardiman’s opinion, which was the other concurring opinion in Binderup. It is difficult to see how this is the case.
5
Nor has any subsequent precedential opinion of this Court
resolved this difficulty by adopting that test. Only three of this
Court’s precedential opinions cite Binderup. None concerns an asapplied challenge to § 922(g)(1). See Beers, 927 F.3d 150; United
States v. Greenspan, 923 F.3d 138 (3d Cir. 2019); Ass’n of N.J.
Rifle & Pistol Clubs v. Attorney Gen. New Jersey, 910 F.3d 106 (3d
Cir. 2018). However, one recent non-precedential opinion confronting an as-applied challenge to § 922(g)(1) has declared the
multifactor test controlling authority. See King v. Attorney Gen.

App. 32
B
Nevertheless, like the District Court, I believe that
the multifactor test should guide the Step One analysis in this case. On my reading, the four factors reflect
an underlying logic that is consistent with our precedent in Barton and Binderup. Those cases require us
to assess the relation between the challenger’s “circumstances [and] those of persons historically barred
from Second Amendment protections.” Barton, 633
F.3d at 174; see also Binderup, 836 F.3d at 346-47 (plurality opinion); id. at 366 (Hardiman, J., concurring in
part and concurring in the judgments). This comparative exercise demands certain measures of “seriousness,” and those measures should naturally be the
features—the classification, elements, and punishments—common to the crimes that traditionally have
qualified the individuals convicted of them for firearm
dispossession. These crimes include felonies, crimes of
violence, and (as Binderup held)6 some nonviolent misdemeanors. Further, because neither courts nor scholars have agreed on the precise contours of this
category—and in particular how “longstanding” a regulation must be for its violators to be considered part
of the historically barred class, see, e.g., United States
v. Skoien, 614 F.3d 638, 640-41 (7th Cir. 2010) (en
banc); C. Kevin Marshall, Why Can’t Martha Stewart
of the United States, No. 18-2571, 2019 WL 3335135, at *2 & N.2
(3d Cir. July 25, 2019).
6
See 836 F.3d at 348-49 (plurality opinion); id. at 387-88
(Fuentes, J., concurring in part, dissenting in part, and dissenting
from the judgments)

App. 33
Have a Gun?, 32 HARV. J.L. & PUB. POL’Y 695 (2009)—
the multifactor test has the virtue of permitting a
number of different measures of “seriousness” without
making any one factor dispositive.
A methodical evaluation of each factor, consistent
with this logic, compels the conclusion reached by the
District Court: that Holloway’s conduct has not removed him from the scope of Second Amendment protection. In conducting this analysis, I shall also address
the majority’s additional considerations—the “potential for danger and risk of harm” posed by the challenger’s crime, Majority Op. at II.B.2, and the
maximum level of punishment Pennsylvania imposes
for Holloway’s second DUI offense, id. While, as noted,
I do not dispute that the majority may supplement the
four factors, any such additions must be—as the four
factors are—consistent with the comparative exercise
required by Barton and Binderup.7

7

According to the majority, I argue that “our considerations
of who falls within the historically barred class must be tied to
Barton, and in particular ‘the presence of force or violence in the
challenger’s conduct,’ ” Majority Op. at II.B.2 n.11. Yet that is not
my argument. At multiple points in this opinion I note that because of the indefinite nature of the historically barred class, no
one factor can be dispositive. I assert, rather, that the relevant
factors may not be any ones we choose—they must aid the determination of whether the challenger’s crime is sufficiently similar
to those of the persons historically barred from firearm possession. This certainly involves historical analysis (which the majority also engages in), but, as I mentioned above and restate below,
it additionally includes looking to other measures relevant to
making the comparison. My point, as I go on to detail, is that the
majority has given too much weight to considerations that,

App. 34
1
The first factor asks whether the challenger’s
crime is a felony or a misdemeanor. The majority
acknowledges that Pennsylvania classifies Holloway’s
second DUI offense as a misdemeanor, but it points out
that the offense “carries . . . a five-year maximum
prison term.” Majority Op. at II.B.2. Yet, under our
precedent, the potential prison term cannot nullify the
relevance of the felony/misdemeanor distinction for determining whether a crime is “serious” enough to deprive an individual of his Second Amendment right. A
common feature of the crimes that traditionally have
barred an individual from owning a firearm is that
they are classified as felonies.
For example, in Heller, the Supreme Court warned
specifically that its opinion should not be read to question “longstanding prohibitions on the possession of
firearms by felons.” District of Columbia v. Heller, 554
U.S. 570, 626 (2008) (emphasis added); see also McDonald v. City of Chicago, 561 U.S. 742, 786 (2010) (plurality opinion). Congress itself recognized the relevance of
the distinction when it excluded from § 922(g)(1)’s
reach misdemeanors punishable by imprisonment of
two years or less. See 18 U.S.C. § 921(a)(20)(B). If, as
the majority suggests, the maximum length of the sentence rather than the classification of the crime is what
really matters, then Congress would never have made
an exception for misdemeanors alone. It would either
however compelling in other contexts, are irrelevant to the comparative analysis that the majority itself acknowledges we must
conduct. See id. at II.A & n.4.

App. 35
have amended § 922(g)(1) to cover all crimes punishable by more than two years’ incarceration or never
added § 921(a)(20)(B) in the first place.8
Further, the classification of a crime as a felony
has profound implications for whether a person may
possess a firearm under state law. On my assessment,
thirty-two out of fifty-one jurisdictions (the fifty states
and the District of Columbia) disarm individuals because of a felony conviction.9 That is, they bar for at
8

To the extent one gives it validity, the legislative history
confirms this interpretation. In 1961, Congress amended the precursor of § 922(g)(1) to prevent the transportation or receipt of a
firearm by all persons convicted of any “crime punishable by imprisonment for a term exceeding one year”—not just persons convicted of a “crime of violence,” as had previously been the case.
See Act of Oct. 3, 1961, Pub. L. No. 87-342, 75 Stat. 757, 757
(1961). In the Gun Control Act of 1968, however, Congress
amended §§ 921 and 922 to their present form. See Pub. L. No.
90-618, 82 Stat. 1213 (1968). The House bill would have maintained the existing broad language covering all crimes—both felonies and misdemeanors—punishable by more than one year of
imprisonment. See H.R. 17735, 90th Cong. § 2 (1968). By contrast,
the Senate bill would have made it “unlawful for any person . . .
convicted in any court of a crime punishable as a felony” to
transport or receive any firearm. S. 3633, 90th Cong. § 102 (1968).
The Conference Report noted this discrepancy, declaring the compromise to be the maintenance of the House language in
§ 922(g)(1), but adding what became § 921(a)(20)(B). See H.R.
REP. NO. 90-1956, at 28-29 (1968) (Conf. Rep.). Thus, in creating
our current regime, Congress not only wanted to include misdemeanors as well as felonies in the reach of the law, but also drew
a distinction between the two types of crimes.
9
See ALASKA STAT. § 11.61.200(a)(1) (2019); ARIZ. REV. STAT.
ANN. § 13-904(A)(5) (2019); ARK. CODE ANN. § 5-73-103(a)(1)
(2019); CAL. PENAL CODE § 29800(a)(1) (West 2019); COLO. REV.
STAT. § 18-12-108(1) (2019); CONN. GEN. STAT. § 53a-217(a)(1)
(2019); DEL. CODE ANN. tit. 11, § 1448(a)(1) (2019); D.C. CODE

App. 36
least some time the possession of a firearm precisely
because the person was convicted of a crime labeled a
felony. The distinction therefore matters for defining
the historically barred class, regardless of jurisdictional diversity in the sentence ranges for various
crimes.
As noted, in evaluating the relevance of the felony/
misdemeanor distinction, the majority lends great
weight to the maximum punishment that Pennsylvania imposes for Holloway’s offense. See Majority Op. at
II.B.2. However, a majority of the en banc Court in
Binderup rejected the significance of that consideration. As Judge Ambro noted there, prohibitions on the
possession of firearms by criminals are only “presumptively lawful.” Binderup, 836 F.3d at 350 (opinion of
Ambro, J.) (emphasis added) (citing Heller, 554 U.S. at
626-27 & n.26, and in the absence of an explicit declaration to the contrary, all presumptions are rebuttable.
§ 7-2502.03(a)(2) (2019); FLA. STAT. § 790.23(1) (2019); HAW. REV.
STAT. § 134-7(b) (2019); 720 ILL. COMP. STAT. 5/24-1.1(a) (2019);
IND. CODE § 35-47-2-3(h) (2019); IOWA CODE § 724.26(1) (2019);
KAN. STAT. ANN. § 21-6304(a) (2019); KY. REV. STAT. ANN.
§ 527.040(1) (West 2019); MD. CODE ANN., CRIM. LAW § 5-622(b)
(West 2019); MASS. GEN. LAWS ch. 140, § 131(d)(i)(A) (2019); MICH.
COMP. LAWS § 750.224f (1) (2019); MISS. CODE ANN. § 97-37-5(1)
(2019); MO. REV. STAT. § 571.070.1(1) (2019); NEB. REV. STAT. § 281206(1)(a)(i), (2) (2019); NEV. REV. STAT. § 202.360(1)(b) (2019);
N.H. REV. STAT. ANN. § 159:3 (2019); N.M. STAT. ANN. § 30-716(A)(1) (2019); N.Y. PENAL LAW § 400.00(1)(c) (McKinney 2019);
N.C. GEN. STAT. § 14-415.1(a) (2019); OKLA. STAT. tit. 21,
§ 1283(A) (2019); OR. REV. STAT. § 166.270 (2019); TEX. PENAL
CODE ANN. § 46.04(a) (West 2019); VA. CODE ANN. § 18.2-308.2(A)
(2019); WASH. REV. CODE § 9.41.040(2)(a)(i) (2019); WIS. STAT.
§ 941.29(1m) (2019).

App. 37
To hold otherwise would constitute “an end-run around
the Second Amendment,” in effect subjecting such prohibitions to rational-basis review rather than the
heightened scrutiny demanded when a constitutional
right is at stake. Id. at 351-52. As a result, the maximum possible sentence for Holloway’s crime, although
a valid consideration, cannot detract from the relevance of a factor that is consistent with our precedent
in Barton and Binderup.10
In saying this, I do not question the Pennsylvania
legislature’s judgment that an offense such as Holloway’s should be punishable by a lengthy prison term.
But for the purposes of answering the question before
us today—whether that offense is “serious” enough to
10

I do not, as the majority suggests, read Binderup as “reject[ing] consideration of a maximum penalty in favor of the
felony/misdemeanor label.” Majority Op. at II.B.2 n.13. Rather,
my point is that the majority cannot invoke the maximum penalty
to discount the relevance of a factor consistent with the comparative exercise Barton and Binderup require us to conduct. The dissent in Binderup would have held the challengers’ crimes
“serious” simply because they carry maximum prison terms exceeding those provided in §§ 921(a)(20)(B) and 922(g)(1). See 836
F.3d at 388 (Fuentes, J., concurring in part, dissenting in part,
and dissenting from the judgments). A majority of the judges rejected such a categorical approach—and that is a key reason why
Binderup came out as it did. The maximum penalty and the
felony/misdemeanor distinction cannot, therefore, be treated as
mutually exclusive. For this same reason, I agree with the majority that the maximum punishment is probative of the offense’s
“seriousness.” See Majority Op. at II.B.2. But I think that fact
should be considered under the fourth factor—how United States
jurisdictions generally punish the offense. It is important, for purposes of the Barton and Binderup comparison, whether the challenger’s maximum punishment reflects a jurisdictional consensus
or is an outlier.

App. 38
deprive Holloway of his Second Amendment right—we
must look to how his offense compares with those of
the historically barred class. That involves giving
weight to the felony/misdemeanor distinction. In addition to the sentence it permitted, the Pennsylvania legislature also chose to punish Holloway’s crime as a
misdemeanor. Indeed, the sentence and the classification are inseparable—all such misdemeanors in Pennsylvania carry Holloway’s maximum possible prison
term. See 18 PA. CONS. STAT. § 1104(1) (2019). Even as
a simple matter of statutory interpretation, then, the
classification of the crime matters. This factor therefore weighs in Holloway’s favor.
2
The second factor asks whether the “[c]hallenger’s
offense had the use or attempted use of force as an element.” Binderup, 836 F.3d at 352 (opinion of Ambro,
J.). The majority concedes that Holloway’s DUI offense
does not fulfill this criterion, see Majority Op. at II.B.2,
but it supplements its analysis by considering the
crime’s “potential for danger and risk of harm to self
and others,” id. Although the Marks rule does not foreclose additions to the multifactor test by a panel majority, our precedent demands that the “seriousness”
inquiry be a comparative exercise involving the challenger’s offense and the characteristic features of those
crimes that traditionally have disqualified persons
from owning firearms. The virtue of the second
Binderup factor is that it crystallizes in a clear legal
standard the evident historical concern with force and

App. 39
violence. By contrast, the relevant historical and contemporary authorities do not support a standard focusing on all conduct that poses a “potential for danger
and risk of harm to self and others.” Id.
The most prominent late eighteenth-century
sources supporting legislative power to bar certain individuals from owning firearms are the proposals
made in the ratifying conventions of Pennsylvania,
New Hampshire, and Massachusetts. The first of these
provides that “no law shall be passed for disarming the
people or any of them, unless for crimes committed, or
real danger of public injury from individuals.” THE ADDRESS AND REASONS OF DISSENT OF THE MINORITY OF THE
CONVENTION, OF THE STATE OF PENNSYLVANIA, TO THEIR
CONSTITUENTS 1 (Phila., E. Oswald 1787), https://www.
loc.gov/item/90898134. It is important to note that the
two categories are interlocking—the provision captures both convicted criminals and those non-criminals
who pose a “real danger of public injury.” Id. The inclusion of the latter phrase in turn suggests that the
drafters did not necessarily have in mind all crimes,
but rather those that manifest a real danger to the
public. To this extent, I agree with the majority’s reading of the text. See Majority Op. at II.B.2 n.11.
Yet the provision alone does not tell us what “real
danger of public injury” means. Perhaps the best way
of interpreting this historical term is to look to the dispossessory provisions proposed at the other two conventions. In voting to ratify the Federal Constitution,
New Hampshire’s delegates also recommended certain
amendments to it. Among these was a provision that

App. 40
“Congress shall never disarm any citizen, unless such
as are or have been in actual rebellion.” 1 JONATHAN
ELLIOT, THE DEBATES IN THE SEVERAL STATE CONVENTIONS ON THE ADOPTION OF THE FEDERAL CONSTITUTION
326 (2d ed. 1836). Although the Pennsylvania minority’s “real danger of public injury” was likely meant to
sweep more broadly than New Hampshire’s “in actual
rebellion,” insofar as we are attempting to discover the
limitations the ratifying public would have implicitly
placed on the Second Amendment, the New Hampshire
provision suggests a concern with armed conflict or violence against the government, rather than with all
dangerous acts. In this context, it is noteworthy that
the Pennsylvania minority speaks of the danger of
public, rather than private, injury—a distinction it explicitly makes elsewhere in the document. See, e.g., ADDRESS AND REASONS OF DISSENT, at 3 (“The absolute
unqualified command that congress have over the militia may be made instrumental to the destruction of
all liberty, both public and private. . . .”). From this perspective, it appears the Pennsylvania antifederalists
had in mind something narrower than the majority’s
standard of “risk of harm to self and others.”11
11

The majority does not discuss the New Hampshire proposal. Nevertheless, it declares this reading of the Pennsylvania
minority’s Address “foreclosed by our precedent” in Beers. Majority Op. at II.B.2 n.11. It is unclear, though, how Beers’s interpretation constitutes binding precedent. Beers used the phrase “real
danger of public injury” to hold in part “that the traditional justification for disarming mentally ill individuals was that they were
considered dangerous to themselves and/or to the public at large.”
927 F.3d at 158. By its very terms, this holding applies to the
mentally ill, not to those convicted of crimes. To the extent Beers

App. 41
This understanding is also found in Samuel Adams’s proposal to the Massachusetts ratifying convention. The Constitution, he suggested, should never be
“construed to authorize Congress . . . to prevent the
people of the United States who are peaceable citizens
from keeping their own arms.” 3 WILLIAM V. WELLS, THE
LIFE AND PUBLIC SERVICES OF SAMUEL ADAMS 267 (Bos.,
Little, Brown & Co. 1865). What Adams meant by
“peaceable” can be determined from the rest of his proposal. He also thought the Constitution should not be
construed “to prevent the people from petitioning, in a
peaceable and orderly manner, the Federal Legislature
for a redress of grievances.” Id. The right to keep arms
was linked to the assembly and petitioning right not
only in Adams’s proposal but also in the Bill of Rights
itself. To many late-eighteenth-century Americans, the
arms right in the Second Amendment helped to ensure
found the phrase to apply to all persons who present a danger to
themselves or the public at large, that finding is dicta. Alternatively, if an interpretation of “real danger of public injury” can
apply precedentially beyond the context in which it is invoked,
then Beers was in fact bound by Barton’s interpretation, which
found the phrase to cover “those who were likely to commit violent
offenses.” See 633 F.3d at 173. It cannot plausibly be argued that
Binderup overruled this aspect of Barton, since the Binderup plurality opinion emphasized the phrase “crimes committed,” which
precedes “real danger of public injury” in the Address, and suggested that it was the operative language covering nonviolent offenses. See 836 F.3d at 349 (plurality opinion). Further, the
plurality opinion explicitly stated that it was overruling Barton
“[t]o the extent” that Barton “holds that people convicted of serious crimes may regain their lost Second Amendment rights after
not posing a threat to society for a period of time.” Id. at 350. On
any reading, then, the majority is incorrect to suggest that Beers
requires us to interpret “real danger of public injury” as it does.

App. 42
that the liberties guaranteed in the First Amendment
would not be eroded by a tyrannical central government. See AKHIL REED AMAR, THE BILL OF RIGHTS: CREATION AND RECONSTRUCTION 47-48 (1998). Thus, in both
Adams’s proposal and the Bill of Rights, it is “the people” who are given the right to petition their government and to possess arms. That entity, of course, is the
one that (as the Preamble declares) alone has the
power to form the government, and concomitantly to
alter or abolish it. In this context, “peaceable” refers to
those individuals who remain a part of “the people,”
and do not independently disturb or take up arms
against its legitimate government. Only “the people”
itself has that ability.
In sum, the principal historical evidence from the
Founding period suggests that the majority’s “risk of
harm” standard is too broad to serve as a basis for comparison under our precedent. The correct standard appears to be something closer to the one used in
Binderup, focusing on the presence of force or violence
in the challenger’s conduct. Notably, in a part of Barton
that remains good law, our Court summarized the ratifying convention proposals as “confirm[ing] that the
common law right to keep and bear arms did not extend to those who were likely to commit violent offenses.” 633 F.3d at 173 (emphasis added); see also
Kanter v. Barr, 919 F.3d 437, 456 (7th Cir. 2019) (Barrett, J., dissenting) (concluding that “[t]he concern

App. 43
common to all three” proposals is “threatened violence
and the risk of public injury”).12
Further, although the majority cites contemporary
authorities to support its standard, these seem to me
inapt for conducting the comparison required by Barton 186*186 and Binderup. On my reading, the majority principally relies on an inference from a colloquial
understanding of drunk driving’s “seriousness” to that
offense’s “seriousness” for purposes of depriving a person of Second Amendment protection. See Majority Op.
at II.B.2. This is a category mistake. If we conducted a
poll of a representative sample of Americans, asking
them whether drunk driving is a serious crime, it is
likely that most would answer affirmatively. Such an
appeal to ordinary meaning has legal purchase in the
context of statutory interpretation because a court
there confronts words as adopted by a procedurally
12

Additional historical evidence from after the Founding further undercuts the majority’s position. For one, scholars have
found little evidence of categorical bans on firearm possession in
the nineteenth century. The principal means of gun control in this
period appear to have been public-carry laws. See Saul Cornell,
The Right to Keep and Carry Arms in Anglo-American Law: Preserving Liberty and Keeping the Peace, 80 LAW & CONTEMP. PROBS.
11, 33-43 (2017); Marshall, supra, at 710-12. In addition, although
firearm dispossession laws became increasingly prevalent in the
early twentieth century, even these foundational statutes cannot
support the majority’s standard. For example, the original version
of § 922(g)(1) made it unlawful for any person “convicted of a
crime of violence” to transport or receive a firearm. Federal Firearms Act, Pub. L. No. 75-785, § 2, 52 Stat. 1250, 1251 (1938) (codified at 15 U.S.C. § 902 (1940)). On the background to the Federal
Firearms Act’s “crime of violence” provision, see Marshall, supra,
at 700-07.

App. 44
established majority of the people’s elected representatives. But “serious” for present purposes is not a statutory, let alone a constitutional, term. It is how a
majority of this Circuit’s judges in Binderup summarized the crimes that historically have deprived persons convicted of them of the right to own a firearm.
“Serious,” therefore, has a discrete legal meaning, and
the “seriousness” inquiry must be given content consistent with that meaning. It is a determination of
whether a challenger’s offense is sufficiently similar to
those committed by the historically barred class. Evaluation of the second factor should be grounded in this
legal framework.
Given the indeterminate nature of the historically
barred class, I do not dispute that current authorities
may assist us in measuring the “seriousness” of a challenger’s offense. But any such measurement must be
consistent with our precedent. To me, the most relevant contemporary authorities for measuring “seriousness” are in fact included in the third and fourth
factors: the actors within the criminal-justice system
who confronted the challenger’s offense and imposed a
punishment, and the jurisdictions that penalize the
challenger’s conduct as a crime. As a result, I must conclude that the second factor weighs in Holloway’s favor.
3
Although the preceding factors support Holloway,
they are insufficient in themselves to establish
whether he is entitled to Second Amendment

App. 45
protection. Because a majority of the judges in
Binderup held that a nonviolent misdemeanor may be
“serious,” the preceding factors, while probative
measures of “seriousness,” are not dispositive. Yet in
the absence of common features of “serious” nonviolent
misdemeanors—and Binderup did not specify any—we
must compare the punishment for the challenger’s
crime with the punishments for the crimes of the historically barred class. See 836 F.3d at 352 (opinion of
Ambro, J.). The third and fourth Binderup factors both
accomplish this end.13
The third factor looks to the sentence the challenger received. It directs our attention to the unique
circumstances of the challenger’s offense and conviction. Holloway was arrested in January 2005 after a
police officer witnessed him driving the wrong way
down a one-way street. Holloway, 349 F. Supp. 3d at
454. He registered a blood alcohol concentration (BAC)
at the “highest rate” under Pennsylvania law, and because this was his second DUI offense, he was convicted of a first-degree misdemeanor, punishable by up
to five years in prison. Id. However, he received the
13

The majority says that “in addition to ascribing high value
to the offense’s felony/misdemeanor label,” I “favor[ ]” a focus “on
the actual penalty imposed.” Majority Op. at II. B.2 n.12. It contrasts this view with its own, declaring it “proper to consider the
maximum penalty an offender faces, and not simply” these other
factors. Id. As I have noted, however, I do not value any one factor
above another, and in fact agree with the majority that the maximum penalty is relevant, though (for the reasons I state below) I
think that such a penalty is most appropriately, for purposes of
the Barton and Binderup comparison, considered under the
fourth factor.

App. 46
mandatory minimum sentence, which included three
months of confinement on a work-release program. Id.
454-55.
The majority finds this factor against Holloway,
emphasizing that, unlike the challengers in Binderup,
he received a punishment that deprived him of his liberty. See Majority Op. at II.B.2. While this fact is
certainly evidence that Pennsylvania considers Holloway’s offense more significant than that of Binderup
(which was also committed in Pennsylvania), it does
not measure Holloway’s offense against those of the
historically barred class. A factor that considers the
punishment received suggests some deference to the
decisions of those within the criminal-justice system.
See Binderup, 836 F.3d at 352 (opinion of Ambro, J.)
(“[P]unishments are selected by judges who have
firsthand knowledge of the facts and circumstances of
the cases and who likely have the benefit of pre-sentence reports prepared by trained professionals.”).
Here, the actors on the ground did not deem Holloway’s
offense “serious” enough to warrant the maximum penalty that Pennsylvania law permitted. Rather, the sentencing judge imposed the lightest punishment that
the law allowed—a term of imprisonment, with work
release, considerably shorter than the qualifying sentences under either § 922(g)(1) or § 921(a)(20)(B). As
the District Court noted, Holloway’s assignment to a
work-release program “undergirds the relatively
minor nature of his sentence and suggests that the
sentencing judge did not find Holloway to pose a

App. 47
significant risk to public safety.” Holloway, 349
F. Supp. 3d at 457.
For the purposes of the Barton and Binderup comparison, then, I conclude that those who administered
Pennsylvania’s law did not deem Holloway’s offense
“serious” enough to merit imposition of a sentence on a
par with those of the historically barred class. The argument that Holloway’s punishment was greater than
anything received by the Binderup challengers bears
more on the final factor than on the present one. The
latter supports Holloway’s claim to Second Amendment protection.
4
The fourth factor asks whether there is a “crossjurisdictional consensus regarding the seriousness of
the [challenger’s] crime[ ].” Id. Like the sentence actually received, the challenger’s maximum possible punishment similarly provides a point of comparison with
the historically barred class, but it cannot be assessed
by looking to the challenger’s jurisdiction alone. The
fact that the challenger’s crime is punishable by more
than one or two years is the very reason he is in court;
it demonstrates only that one jurisdiction has chosen
to punish his conduct on terms comparable to the
punishments of the historically barred class. More significant is how jurisdictions generally punish the challenger’s conduct because such a measure permits a
comparison of current appraisal of the significance of

App. 48
the challenger’s crime with the punishments imposed
on the historical class.
My review of the DUI laws in all fifty states and
the District of Columbia reveals a notable consensus
in how these jurisdictions punish Holloway’s conduct.
Most importantly, only twelve of these jurisdictions
punish such conduct with a maximum term of imprisonment exceeding one year.14 Of these twelve jurisdictions, seven provide for a maximum punishment
exceeding two years,15 and only four of these seven
classify such a crime as a misdemeanor.16 The other
three jurisdictions, as well as the remaining five that
punish the crime by more than one year of imprisonment, classify it as a felony. Given these statistics,
14

See CONN. GEN. STAT. §§ 14-227a, 53a-25, 53a-26 (2019);
DEL. CODE ANN. tit. 21, § 4177; tit. 11, § 233 (2019); IND. CODE
§§ 9-30-5-1, 9-30-5-3 (2019); IOWA CODE § 321J.2 (2019); MD.
CODE ANN., TRANSP. §§ 21-902, 27-101 to -102 (West 2019); MASS.
GEN. LAWS ch. 90, § 24; ch. 274, § 1 (2019); N.Y. VEH. & TRAF. LAW
§§ 1192-1193 (McKinney 2019); N.C. GEN. STAT. §§ 20-138.1, 20138.5, 20-179 (2019); OKLA. STAT. tit. 47, § 11-902 (2019); 75 PA.
CONS. STAT. §§ 3803(b)(4), 3804 (2019); 18 PA. CONS. STAT. § 1104
(2019); S.C. CODE ANN. §§ 56-5-2930, 56-5-2933, 16-1-20, 16-1-100
(2019); VT. STAT. ANN. tit. 23, §§ 1201, 1210; tit. 13, § 1 (2019).
15
See IND. CODE §§ 9-30-5-1, 9-30-5-3 (2019); MASS. GEN.
LAWS ch. 90, § 24; ch. 274, § 1 (2019); N.Y. VEH. & TRAF. LAW
§§ 1192-1193 (McKinney 2019); N.C. GEN. STAT. §§ 20-138.1, 20138.5, 20-179 (2019); OKLA. STAT. tit. 47, § 11-902 (2019); 75 PA.
CONS. STAT. §§ 3803(b)(4), 3804 (2019); 18 PA. CONS. STAT. § 1104
(2019); S.C. CODE ANN. §§ 56-5-2930, 56-5-2933, 16-1-20, 16-1-100
(2019).
16
See Mass. Gen. Laws ch. 90, § 24; ch. 274, § 1 (2019); N.C.
GEN. STAT. §§ 20-138.1, 20-138.5, 20-179 (2019); 75 PA. CONS.
STAT. §§ 3803(b)(4), 3804 (2019); 18 PA. CONS. STAT. § 1104 (2019);
S.C. CODE ANN. §§ 56-5-2930, 56-5-2933, 16-1-20, 16-1-100 (2019).

App. 49
there is no cross-jurisdictional consensus that a second
DUI offense with a BAC at 0.192% is “serious” for purposes of Second Amendment analysis. In fact, the consensus lies in the other direction: a significant majority
of jurisdictions—thirty-nine out of fifty-one—do not
consider Holloway’s second DUI offense to be a crime
worthy of punishment in accord with that of a traditional felony.
The majority finds it sufficient that “states unanimously agree that DUIs are crimes subject to punishment.” Majority Op. at II.B.2. Yet as I have
emphasized, our precedent dictates that the relevant
measures of “seriousness” are those indicating how the
challenger’s circumstances compare with the circumstances of the historically barred class. The fact of punishment alone should not render a crime “serious”
enough to deprive an individual of a constitutional
right. In the light of the evidence presented above, I
must conclude that under the fourth factor, Holloway
is not removed from the scope of Second Amendment
protection.
*

*

*

Drunk driving is a dangerous crime. Declaring it
not “serious” for purposes of the Second Amendment in
no way detracts from its “seriousness” in the ordinary
understanding of that word. But that is my point—the
two categories are distinct, and our analysis should reflect that fact. Although Binderup did not create controlling precedent on the nature of the “seriousness”
inquiry, the legal content of that inquiry must fulfill

App. 50
the requirements established in Barton and Binderup.
Properly understood and applied, the multifactor test
meets these demands. And in the context of the present
case, it leads me to agree with the District Court that
§ 922(g)(1) burdens Holloway’s constitutional right to
own a firearm. In this way, I part with the majority in
this case.
II
If a court determines, as I do here, that the challenged law burdens protected conduct, then Marzzarella’s second step requires the court to “evaluate the
law under some form of means-ends scrutiny.” 614 F.3d
at 89. In Binderup, the same ten judges who agreed to
adopt Marzzarella’s two-step framework and the “seriousness” standard also accepted the application of intermediate scrutiny in as-applied challenges to
§ 922(g)(1). See Binderup, 836 F.3d at 353 (opinion of
Ambro, J.); id. at 398 (Fuentes, J., concurring in part,
dissenting in part, and dissenting from the judgments).
Therefore, our precedent requires the application of intermediate scrutiny in the present case. See Donovan,
661 F.3d at 182.
Following a long line of Supreme Court case law,
Marzzarella enumerated two elements of intermediate-scrutiny review. First, the government interest in
the enforcement of the challenged regulation must be
“significant, substantial, or important.” 614 F.3d at 98
(internal quotation marks omitted). Second, there
must be a “reasonable” fit between the asserted

App. 51
government interest and the regulation as written or
applied. Id.; see also Ass’n of N.J. Rifle & Pistol Clubs,
Inc. v. Attorney Gen. New Jersey, 910 F.3d 106, 119 (3d
Cir. 2018) (adopting this two-part test); Drake v. Filko,
724 F.3d 426, 436 (3d Cir. 2013) (same). I will consider
each in turn.
A
The parties do not contest that the government
has a substantial interest in “protecting the public
from people who cannot be trusted to use firearms responsibly.” Appellants’ Br. at 29. Neither Holloway’s
brief nor the District Court’s opinion even mention this
element. Thus, there is no reason to question whether
the government has a substantial interest in enforcing
§ 922(g)(1).
B
Our primary difficulty lies in determining how to
apply the second element of intermediate-scrutiny review to § 922(g)(1). Binderup established no precedent
for how to decide whether there is a “[reasonable] fit
between [§ 922(g)(1)] and the asserted governmental
end.” Marzzarella, 614 F.3d at 98. Moreover, the standards applied by the judges in that case are not the
same as the standard applied by the Court in Marzzarella. Yet as I detail in Section II.B.1, these standards are in fact doctrinally consistent with each other.
If the government presents sufficient evidence to support its enforcement of the regulation at issue, we are

App. 52
then to evaluate how closely the regulation has been
drawn to advance that interest. This is the standard I
apply in Section II.B.2, concluding that § 922(g)(1) as
applied in the present case fails intermediate scrutiny.
1
There is no binding precedent in our Circuit for
the proper application of intermediate scrutiny to
§ 922(g)(1). In Binderup, the opinion announcing the
Court’s judgment said the government “must ‘present
some meaningful evidence, not mere assertions, to justify its predictive . . . judgments’ ” regarding the danger
presented by the challengers and others like them. 836
F.3d at 354 (opinion of Ambro, J.) (quoting Heller v. District of Columbia, 670 F.3d 1244, 1259 (D.C. Cir. 2011)).
By contrast, in Marzzarella, the Court held that 18
U.S.C. § 922(k) “fits reasonably with [the government’s
asserted] interest in that it reaches only conduct creating a substantial risk of rendering a firearm untraceable.” 614 F.3d at 98. Whereas in Binderup, then, the
judges were concerned with the evidence the government put forward, in Marzzarella the Court focused on
the relation between the government’s asserted interest and the statute’s actual operation.17
Despite this ostensible difference, these standards
are in fact consistent with each other as a doctrinal
matter. Marzzarella followed Heller in looking to the
17

For the same reasons given above with regard to the multifactor test, I do not think the application of intermediate scrutiny in Binderup is binding precedent under the Marks rule.

App. 53
Supreme Court’s First Amendment case law for guidance, calling that doctrine “the natural choice” for
“evaluating Second Amendment challenges.” 614 F.3d
at 89 n.4. In particular, for the second prong of intermediate-scrutiny review—that “the fit between the
challenged regulation and the asserted objective be
reasonable, not perfect”—Marzzarella referred to two
of the Supreme Court’s commercial-speech cases. See
id. at 98 (citing Lorillard Tobacco Co. v. Reilly, 533 U.S.
525, 556 (2001); and Bd. of Trs. of State Univ. of N.Y. v.
Fox, 492 U.S. 469, 480 (1989)). A brief consideration of
commercial-speech doctrine allows us to see how our
Circuit’s Second Amendment precedent in fact dictates
a single standard for subjecting § 922(g)(1) to intermediate scrutiny.18
The Supreme Court applies a four-step test for determining whether a regulation of commercial speech
violates the First Amendment. A court must first “determine whether the expression is protected by the
First Amendment,” and then “ask whether the asserted governmental interest is substantial.” Cent.
Hudson Gas & Elec. Corp. v. Pub. Serv. Comm’n of N.Y.,
447 U.S. 557, 566 (1980); see also Fox, 492 U.S. at 475.
If the answer to both inquires is affirmative, the government must then show “that the statute directly advances a substantial governmental interest and that
18

The majority suggests that I am “advocating that we import” the commercial-speech standard into the § 922(g)(1) context.
Majority Op. at II.B.2 n.16. To the contrary, I am simply applying
our precedent, mindful that Marzzarella has “guided how we approach as-applied Second Amendment challenges.” Binderup, 836
F.3d at 346 (plurality opinion).

App. 54
the measure is drawn to achieve that interest.” Sorrell
v. IMS Health Inc., 564 U.S. 552, 572 (2011) (citing Fox,
492 U.S. at 480-81 and Cent. Hudson, 447 U.S. at 566).
This test bears notable resemblance to our Circuit’s developing Second Amendment doctrine. For our
purposes here, the third and fourth steps are especially
remarkable: they resemble the standards applied in
Binderup and Marzzarella, respectively. Both are essential means of measuring the fit between the interest and the regulation. Indeed, the Supreme Court has
said that these steps are not necessarily distinct inquiries. In as-applied challenges, the question posed at
step three “cannot be answered by limiting the inquiry
to whether the governmental interest is directly advanced as applied to a single person or entity.” United
States v. Edge Broad. Co., 509 U.S. 418, 427 (1993). The
court must also consider “the regulation’s general application to others” with the same relevant characteristics as the challenger. Id. As a result, the validity of
the regulation’s application to the challenger “properly
should be dealt with under the fourth factor of the Central Hudson test.” Id. This means that, regardless of
the nature of the challenge, the third and fourth steps
“basically involve a consideration of the fit between the
legislature’s ends and the means chosen to accomplish
those ends.” Id. at 427-28 (internal quotation marks
omitted).
This background clarifies the standard to apply in
the present case. In effect, Binderup concerned the correct application of the third step—whether the regulation “directly advances a substantial governmental

App. 55
interest.” Sorrell, 564 U.S. at 572. The three-judge
opinion announcing the judgment of the Court did not
need to advance its inquiry any further, because it concluded that § 922(g)(1) already failed as applied. In
Marzzarella, however, there was no question whether
the government had presented sufficient evidence to
justify its enforcement action, and so the Court looked
to how closely § 922(k) was drawn to achieve the government’s stated interest, holding that the statute is
not impermissibly overinclusive because “it reaches
only conduct creating a substantial risk of rendering a
firearm untraceable.” 614 F.3d at 98. As a result, to my
mind Binderup and Marzzarella are doctrinally consistent, or at least reconcilable, in the light of how the
Supreme Court has elaborated the final two steps of
the commercial-speech test. At Marzzarella Step Two,
if we are satisfied with the evidence supporting the
statute’s application, we must then consider how
closely the statute has been drawn to advance the government’s substantial interest.
2
Applying that standard in the present case, I conclude that § 922(g)(1) does not survive intermediate
scrutiny. I disagree with the District Court, however,
that the government has failed to produce evidence
demonstrating that its enforcement of the statute directly advances its stated substantial interest. Rather,
the flaw with the government’s case is that the statute
as applied here is “wildly underinclusive.” Nat’l Inst.
Fam. & Life Advocs. v. Becerra, 138 S. Ct. 2361, 2375

App. 56
(2018) (quoting Brown v. Entm’t Merchs. Ass’n, 564 U.S.
786, 802 (2011)).
a
In finding that § 922(g)(1)’s enforcement in this
case does not directly advance the government’s substantial interest, the District Court demanded an excessively particularized connection between the
evidence proffered and Holloway’s circumstances. Yet,
as explained above, we should not limit our “inquiry to
whether the governmental interest is directly advanced as applied to a single person or entity,” but
also consider “the regulation’s general application to
others.” Edge Broad. Co., 509 U.S. at 427. The government’s studies in Binderup were “obviously distinguishable.” 836 F.3d at 354 (opinion of Ambro, J.). They
concerned the likelihood of incarcerated felons to
reoffend, though the Binderup challengers were neither incarcerated nor felons under state law. And the
studies cited recidivism rates not applicable to individuals in the challengers’ situation. More compelling
studies would have presented evidence relating to individuals “with the Challengers’ backgrounds.” Id. at
355.
The government’s expert report in the present
case does exactly that. It offers evidence relating to the
features of Holloway’s biography that are at issue in
this case. It refers to the likelihood of drug and alcohol
abuse among repeat DUI offenders. D. Ct. Docket No.
61-4, at 4. It refers to firearm purchasers with prior

App. 57
alcohol-related convictions. Id. at 9. These are the features of Holloway’s biography at issue here. For the
purposes of government policy, barring individuals
with those characteristics from possessing a firearm is
reasonable.
b
As explained above, our inquiry into “reasonable
fit” does not end here. The question is not merely
whether it is reasonable to disarm the challenger because of his conviction, but whether “the fit between
the challenged regulation and the asserted objective
[is] reasonable.” Marzzarella, 614 F.3d at 98 (emphasis
added). As a result, we must consider, in the context of
this as-applied challenge, how closely § 922(g)(1) has
been drawn to achieve the government’s substantial
interest.
Under this standard, the law appears to be significantly underinclusive. Holloway’s crimes—a first DUI
offense at a BAC of 0.131%, and a second DUI offense
less than three years later with a BAC of 0.192%—implicate § 922(g)(1) in only eight of fifty-one jurisdictions (the fifty states and the District of Columbia).19
These eight jurisdictions account for approximately
19

See CONN. GEN. STAT. §§ 14-227a, 53a-25, 53a-26 (2019);
IND. CODE §§ 9-30-5-1, 9-30-5-3 (2019); MASS. GEN. LAWS ch. 90,
§ 24; ch. 274, § 1 (2019); N.Y. VEH. & TRAF. LAW §§ 1192-1193
(McKinney 2019); N.C. GEN. STAT. §§ 20-138.1, 20-138.5, 20-179
(2019); OKLA. STAT. tit. 47, § 11-902 (2019); 75 PA. CONS. STAT.
§ 3804 (2019); S.C. CODE ANN. §§ 56-5-2930, 56-5-2933, 16-1-20,
16-1-100 (2019).

App. 58
21% of the United States population.20 On average,
then, only about one in five individuals behaving exactly as Holloway did would be barred from possessing
a firearm under § 922(g)(1). The statute’s dependence
on state criminal classifications and punishments results in an underinclusive application that raises constitutional concerns, regardless of the reasonableness
of disarming recidivist DUI offenders.
c
The next question is whether this underinclusivity
renders § 922(g)(1) as applied here unconstitutional
under intermediate scrutiny. To my mind, there are
two principal counterarguments to answering this
question affirmatively. Both of them fail.
First, it might be argued that our precedent remains unsettled regarding whether underinclusivity is
a valid consideration in the Second Amendment context. Although Marzzarella allowed that a regulation’s
20

I base this number on the U.S. Census Bureau’s estimated
2019 national and state populations. The estimated population of
the fifty states and the District of Columbia on July 1, 2019 was
328,239,523 persons. See U.S. Census Bureau, National Population Totals and Components of Change: 2010-2019, U.S. DEP’T
COM. (DEC. 23, 2019), https://www.census.gov/data/tables/timeseries/
demo/popest/2010s-national-total.html. On that same date, the
total estimated population of the eight states where Holloway’s
crimes would implicate § 922(g)(1) was 69,039,328 persons. See
U.S. Census Bureau, State Population Totals and Components of
Change: 2010-2019, U.S. DEP’T COM. (Dec. 30, 2019), https://www.
census.gov/data/tables/timeseries/demo/popest/2010s-state-total.
html.

App. 59
“underinclusiveness can be evidence that the interest
is not significant enough to justify the regulation,” 614
F.3d at 99, the Court was there referring to underinclusivity in the context of strict, rather than intermediate, scrutiny. As a result, a future panel majority may
reject a consideration of underinclusivity in intermediate-scrutiny review. See, e.g., Ass’n of N.J. Rifle & Pistol
Clubs, 910 F.3d at 122 n.28 (“While our Court has consulted First Amendment jurisprudence concerning the
appropriate level of scrutiny to apply to a gun regulation, we have not wholesale incorporated it into the
Second Amendment.” (citations omitted)).
Yet, in constitutional law, underinclusivity follows
necessarily from the evaluation of a fit between means
and ends. And in Marzzarella we explicitly adopted a
test that considers “the fit between the challenged regulation and the asserted objective.” 614 F.3d at 98; see
also Reilly, 533 U.S. at 556; Fla. Bar v. Went For It, Inc.,
515 U.S. 618, 632 (1995); Fox, 492 U.S. at 480. The assessment of fit looks to the relation between the class
of persons who come within the scope of the regulation’s stated objective, and the class of persons actually
affected by the regulation. See, e.g., Joseph Tussman &
Jacobus tenBroek, The Equal Protection of the Laws,
37 CALIF. L. REV. 341, 344-53 (1949).21 Under this
21

The Court first developed this test in the equal-protection
context, and subsequently imported it into First Amendment doctrine in the early 1970s. See, e.g., Police Dep’t of Chicago v. Mosley, 408 U.S. 92 (1972); Kenneth L. Karst, Equality as a Central
Principle in the First Amendment, 43 U. CHI. L. REV. 20 (1975). It
therefore makes sense that when our Court in Marzzarella began
to formulate Second Amendment doctrine, it called for an

App. 60
standard, what matters is not whether a regulation is
specifically overinclusive, but rather by how much it is
either over- or underinclusive. See, e.g., City of Cincinnati v. Discovery Network, Inc., 507 U.S. 410, 428 (1993)
(holding a city ordinance intended to advance safety
and aesthetic interests unconstitutional because it unjustifiably affected only a small fraction of operating
newsracks, thus constituting an unreasonable fit between ends and means).
This generalized inquiry encompasses both intermediate and strict scrutiny. The difference between
those standards is the degree, rather than the type, of
fit—whether the fit is either “reasonable” or “perfect.”
Marzzarella, 614 F.3d at 98; see McCutcheon v. Fed.
Election Comm’n, 572 U.S. 185, 218 (2014) (plurality
opinion) (“Even when the Court is not applying strict
scrutiny, we still require ‘a fit that is not necessarily
perfect, but reasonable; . . . that employs not necessarily the least restrictive means but . . . a means narrowly tailored to achieve the desired objective.’ ”
(alterations in original) (quoting Fox, 492 U.S. at 480)).
Intermediate scrutiny simply requires less of a fit between the governmental interest and the challenged
regulation than strict scrutiny does.
It would be contrary to the logic of this analysis to
hold that under intermediate scrutiny alone a court
may not consider a regulation’s underinclusivity. To be
evaluation of the challenged law “under some form of means-end
scrutiny,” 614 F.3d at 89, and described that evaluation as an assessment of “the fit between the challenged regulation and the
asserted objective,” id. at 98.

App. 61
sure, there may be a compelling reason why the Second
Amendment context precludes such a consideration,
but, to my mind, even that determination must now be
left either to this Court sitting en banc or to the Supreme Court. Because our Court in Marzzarella
adopted a means-ends fit analysis, we have already decided that underinclusivity is at least a valid consideration.
Second, it might be argued that § 922(g)(1) as applied here falls into one of the contexts in which the
Supreme Court has upheld a regulation despite claims
of underinclusivity. In particular, the Court has
acknowledged two principal defenses—that a distinction drawn by a lawmaking body is in itself legitimate,
and that a legislature is permitted to address a problem incrementally. See Williams-Yulee v. Fla. Bar, 575
U.S. 433 (2015) (highlighting these two defenses); see
also McConnell v. Fed. Election Comm’n, 540 U.S. 93,
207-08 (2003) (“[R]eform may take one step at a time,
addressing itself to the phase of the problem which
seems most acute to the legislative mind.” (quoting
Buckley v. Valeo, 424 U.S. 1, 105 (1976))); Burson v.
Freeman, 504 U.S. 191, 207 (1992) (“States adopt laws
to address the problems that confront them. The First
Amendment does not require States to regulate for
problems that do not exist.”).
These defenses do not support § 922(g)(1) as applied in the present case. Congress has drawn no distinction between different types of conduct—the
same behavior may activate § 922(g)(1) or not based
merely on where that behavior occurred. See City of

App. 62
Cincinnati, 507 U.S. at 428 (declaring a city ordinance
unconstitutionally underinclusive under intermediate
scrutiny “[b]ecause the distinction [the city] has drawn
has absolutely no bearing on the interests it has asserted”). For this same reason, it is hard to see how the
statute represents Congress addressing problems as
they arise. Section 922(g)(1) sweeps so broadly, covering any person convicted under state law of a felony or
a misdemeanor carrying a sentence that exceeds two
years, that in particular applications it is underinclusive, curtailing the constitutional rights of some and
not others for the exact same conduct. Far from regulating for problems that do not exist, Congress is here
not even regulating the vast majority of conduct it apparently deems problematic.
*

*

*

Ultimately at stake in this case is whether the
government may arbitrarily burden the constitutional
right of some citizens and not others. This equality concern goes to the heart of constitutional adjudication,
regardless of the nature of the right at issue. As Justice
Jackson put it in a different context:
The framers of the Constitution knew, and we
should not forget today, that there is no more
effective practical guaranty against arbitrary
and unreasonable government than to require
that the principles of law which officials would
impose upon a minority must be imposed generally. Conversely, nothing opens the door to
arbitrary action so effectively as to allow
those officials to pick and choose only a few to

App. 63
whom they will apply legislation and thus to
escape the political retribution that might be
visited upon them if larger numbers were affected. Courts can take no better measure to
assure that laws will be just than to require
that laws be equal in operation.
Ry. Express Agency v. New York, 336 U.S. 106, 112-13
(1949) (Jackson, J., concurring). When a law, for reasons unrelated to enforcement discretion, on average
punishes the same conduct only one in five times, such
that those chosen individuals are deprived in perpetuity of a constitutional right, there is not a reasonable
fit between the legislature’s asserted interest and the
challenged regulation.22 If Congress wants to bar all
individuals convicted of a second DUI offense with a
BAC above 0.16% of owning a firearm, then it must do
so through the ordinary channels of democratic lawmaking. At least then all persons’ constitutional right
will be treated equally.
For these reasons, I respectfully dissent.

22
Although the majority does not reach Step Two, it observes
that I “seemingly ask[ ] for a near-perfect fit.” Majority Op. at
II.B.2 n.16. Reasonable minds may differ as to whether demanding a fit of greater than 21% is to demand near-perfection.

App. 64
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT
OF PENNSYLVANIA
RAYMOND HOLLOWAY, JR., :
:
Plaintiff
:
v.
:
JEFFERSON B. SESSIONS, :
III, Attorney General of the :
:
United States, THOMAS E.
BRANDON, Acting Director :
:
of the Bureau of Alcohol,
:
Tobacco, Firearms and
Explosives, CHRISTOPHER :
:
A. WRAY, Director of the
Federal Bureau of Investiga- :
:
tion, and the UNITED
1
:
STATES OF AMERICA,
:
Defendants
:

CIVIL ACTION
NO. 1:17-CV-81
(Chief Judge
Conner)

MEMORANDUM
(Filed Sep. 28, 2018)
Holloway brings this civil rights action seeking a
declaration pursuant to the Third Circuit Court of
1

James B. Comey was Director of the Federal Bureau of Investigation when the instant action was commenced against him
in his official capacity. On May 9, 2017, Andrew McCabe succeeded
James B. Comey as Acting Director of the Federal Bureau of Investigation. On August 2, 2017, Christopher A. Wray succeeded Andrew
McCabe as Director of the Federal Bureau of Investigation. Pursuant to Federal Rule of Civil Procedure 25(d), Christopher A. Wray is
substituted as the defendant in this action. See FED. R. CIV. P. 25(d).

App. 65
Appeals’ recent decision in Binderup v. Attorney General, 836 F.3d 336, 339 (3d Cir. 2016) (en banc), cert.
denied 137 S. Ct. 2323 (2017), that 18 U.S.C. § 922(g)(1)
is unconstitutional as applied to him. The complaint
names as defendants the United States of America as
well as Jefferson B. Sessions, Attorney General of the
United States; Thomas E. Brandon, Acting Director of
the Bureau of Alcohol, Tobacco, Firearms and Explosives; and Christopher A. Wray, Director of the Federal
Bureau of Investigation (collectively “defendants” or
“the government”). Before the court is Holloway’s motion (Doc. 58) for summary judgment. Also pending is
defendants’ motion (Doc. 60) to dismiss, or in the alternative, for summary judgment.
I.

Factual Background & Procedural History2

A police officer initiated a traffic stop of Holloway’s
vehicle for speeding on December 28, 2002. (Doc. 61-1
2

Local Rule 56.1 requires that a motion for summary judgment pursuant to Federal Rule of Civil Procedure 56 be supported
“by a separate, short, and concise statement of the material facts,
in numbered paragraphs, as to which the moving party contends
there is no genuine issue to be tried.” LOCAL RULE OF COURT 56.1.
A party opposing a motion for summary judgment must file a separate statement of material facts, responding to the numbered
paragraphs set forth in the moving party’s statement and identifying genuine issues for trial. See id. Unless otherwise noted, the
factual background herein derives from the parties’ Rule 56.1
statements of material facts. (See Docs. 58-3, 61-1, 72-2, 81). To
the extent the parties’ statements are undisputed or supported by
uncontroverted record evidence, the court cites directly to the
Rule 56.1 statements of material facts.

App. 66
¶¶ 7-9). Holloway was subsequently arrested for suspected drunk driving. (Id. ¶¶ 10-14). Approximately
one hour after his arrest, Holloway performed a
breathalyzer test which registered a blood alcohol content (“BAC”) of 0.131 percent. (Id. ¶¶ 15-16). Holloway
was charged with driving under the influence (“driving
under the influence” or “DUI”) of alcohol and speeding
in violation of Pennsylvania law. (Id. ¶ 17). He successfully completed Pennsylvania’s Accelerated Rehabilitative Disposition (“ARD”) program resulting in
dismissal of the charges against him.3 (Id. ¶ 18; Doc.
58-3 ¶ 4); see also PA. R. CRIM. P. 319.
On January 29, 2005, a police officer witnessed
Holloway drive the wrong way down a one-way street
and initiated a traffic stop. (Doc. 61-1 ¶¶ 19-20). After
Holloway was arrested for suspected drunk driving,
the officer administered a breathalyzer test and Holloway registered a BAC of 0.192 percent. (Id. ¶¶ 21-22).
Holloway was charged with driving under the influence in violation of 75 PA. CONS. STAT. § 3802(a)(1), and
driving under the influence at the highest rate of alcohol (BAC of .16 percent or higher) in violation of 75 PA.
3

After dismissing charges pursuant to successful completion
of the ARD program, a judge “shall order the expungement of the
defendant’s arrest record” absent any objection from the government. PA. R. CRIM. P. 320. The Rule 56 record does not indicate
whether Holloway’s 2002 DUI arrest record was expunged. (See
Doc. 78 at 6). Nonetheless, Holloway’s 2002 DUI arrest, and subsequent completion of the ARD program, constitutes a “prior offense” for purposes of “grading” future DUI offenses. See 75 PA.
CONS. STAT. § 3806(a)(1) (citing 75 PA. CONS. STAT. § 3802); see
also id. § 3803.

App. 67
CONS. STAT. § 3802(c). (Id. ¶ 23). He pled guilty to driving under the influence at the highest rate of alcohol.
(Id. ¶ 24). This 2005 DUI conviction was Holloway’s
second offense and was graded as a misdemeanor of
the first degree. (Id.)
In Pennsylvania, a misdemeanor of the first degree carries a maximum possible sentence of five years’
imprisonment. 18 PA. CONS. STAT. § 1104(1). If an individual is convicted of a second DUI offense at the
highest rate of alcohol,4 Pennsylvania requires the individual to, inter alia, serve no less than 90 days’ imprisonment and pay a minimum fine of $1,500. 75 PA.
CONS. STAT. § 3804(c)(2)(i)-(iv). Holloway was sentenced to serve 90 days’ work release, pay a fine of
$1,500, complete any recommended drug and alcohol
treatment, and serve 60 months’ probation. (Doc. 61-1
¶ 25). Through the work release program, Holloway
reported for work each day and occasionally worked
overtime hours but was otherwise confined to the
Cumberland County Prison for the remainder of each
day. (Id. ¶ 26; see also Doc. 72-1 at 7-8). He completed
his sentence in March 2006. (See Doc. 61-1 ¶¶ 25-26).
In September 2016, Holloway attempted to purchase a firearm. (Doc. 61-1 ¶ 28). Holloway’s firearm
application was denied following an instant background check, and Holloway appealed the denial. (Id.
¶¶ 35, 39; see Doc. 61-2 at 83). The Pennsylvania State
4

We refer to Holloway’s 2005 DUI conviction as a “second
DUI offense at the highest rate of alcohol.” This phrasing is used
for clarity and ease of reference and is not meant to imply that his
first DUI conviction was also at the highest rate of alcohol.

App. 68
Police affirmed the background check results and
noted that, pursuant to 18 U.S.C. § 922(g), Holloway’s
2005 DUI conviction prohibited him from purchasing
a firearm. (Doc. 61-1 ¶ 39; Doc. 58-3 ¶ 18; Doc. 61-2 at
83).
Holloway commenced this litigation asserting an
as-applied challenge to 18 U.S.C. § 922(g)(1) under the
Second Amendment to the United States Constitution.
He seeks a declaration that his 2005 DUI conviction
does not justify his disarmament under Section
922(g)(1) as well as a permanent injunction against
defendants’ continued enforcement of the felon-inpossession ban as pertains him. The court denied defendants’ motion to dismiss and dismissed Holloway’s
first motion for summary judgment as premature. After a period of discovery, the parties filed cross motions
for summary judgment.5 The motions are fully briefed
and ripe for disposition.
II.

Legal Standard

Through summary adjudication, the court may
dispose of those claims that do not present a “genuine
dispute as to any material fact” and for which a jury
trial would be an empty and unnecessary formality.
FED. R. CIV. P. 56(a). The burden of proof tasks the
5

Defendants also moved to dismiss Holloway’s claim for lack
of Article III standing. (Doc. 61 at 10-12). In their reply, defendants acknowledge that Holloway “currently has standing to assert his claims.” (Doc. 78 at 1 n.1). The court will therefore deny
defendants’ motion to dismiss.

App. 69
non-moving party to come forth with “affirmative evidence, beyond the allegations of the pleadings,” in support of its right to relief. Pappas v. City of Lebanon, 331
F. Supp. 2d 311, 315 (M.D. Pa. 2004); see also Celotex
Corp. v. Catrett, 477 U.S. 317, 322-23 (1986). The court
is to view the evidence “in the light most favorable to
the non-moving party and draw all reasonable inferences in that party’s favor.” Thomas v. Cumberland
County, 749 F.3d 217, 222 (3d Cir. 2014). This evidence
must be adequate, as a matter of law, to sustain a judgment in favor of the non-moving party on the claims.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 250-57
(1986); Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 587-89 (1986). Only if this threshold is met may the cause of action proceed. See Pappas,
331 F. Supp. 2d at 315.
Courts are permitted to resolve cross-motions for
summary judgment concurrently. See Lawrence v. City
of Phila., 527 F.3d 299, 310 (3d Cir. 2008); see also
Johnson v. Fed. Express Corp., 996 F. Supp. 2d 302, 312
(M.D. Pa. 2014); 10A CHARLES ALAN WRIGHT ET AL.,
FEDERAL PRACTICE AND PROCEDURE § 2720 (3d ed.
2015). When doing so, the court is bound to view the
evidence in the light most favorable to the non-moving
party with respect to each motion. FED. R. CIV. P. 56;
Lawrence, 527 F.3d at 310 (quoting Rains v. Cascade
Indus., Inc., 402 F.2d 241, 245 (3d Cir. 1968)).

App. 70
III. Discussion
Federal law generally prohibits and criminalizes
possession of a firearm by any person convicted of “a
crime punishable by imprisonment for a term exceeding one year.” 18 U.S.C. § 922(g)(1). Excluded from
this ban is any state misdemeanor “punishable by a
term of imprisonment of two years or less.” Id.
§ 921(a)(20)(B). The statute exempts from its prohibition any person whose conviction has been expunged
or set aside, who has been pardoned, or who has had
his or her civil rights restored. Id. § 921(a)(20).
A person prohibited from possessing a firearm
may bring an as-applied Second Amendment challenge
to the statute effecting that ban. See Binderup, 836
F.3d at 339; id. at 357 (Hardiman, J., concurring in
part and concurring in the judgments). Under the
Marzzarella framework endorsed by the Binderup
court, an as-applied Second Amendment challenge proceeds in two steps. Id. at 346 (Ambro, J., plurality opinion) (citing United States v. Marzzarella, 614 F.3d 85,
97 (3d Cir. 2010)); id. at 387 (Fuentes, J. concurring in
part, dissenting in part, and dissenting in the judgments). At step one, the aggrieved party must first
“identify the traditional justifications for excluding
from Second Amendment protections the class of which
he [or she] appears to be a member,” and then present
biographical facts that “distinguish his [or her] circumstances from those of persons in the historically barred
class.” Id. at 347 (Ambro, J., plurality opinion) (citing
United States v. Barton, 633 F.3d 168, 173-74 (3d Cir.
2011)); id. at 387 (Fuentes, J. concurring in part,

App. 71
dissenting in part, and dissenting in the judgments). If
the challenger succeeds at step one, the government
bears the burden of demonstrating that the challenged
regulation “satisfies some form of heightened scrutiny”
at step two. Id. at 347 (Ambro, J., plurality opinion)
(citing Barton, 633 F.3d at 173-74); id. at 353-56 (Ambro, J., plurality opinion) (citing Marzzarella, 614 F.3d
at 97); id. at 397-98 (Fuentes, J. concurring in part, dissenting in part, and dissenting in the judgments).
Holloway’s second DUI offense at the highest rate
of alcohol, was punishable by up to five years’ imprisonment and therefore falls within the ambit of Section
922(g)(1). See 18 PA. CONS. STAT. § 1104(1); 75 PA.
CONS. STAT. § 3803(b)(4). Holloway argues that this
conviction is not sufficiently serious to justify annulment of his Second Amendment rights and that defendants have not satisfied intermediate scrutiny at
step two. Holloway also challenges the propriety of
applying any means-end scrutiny to his as-applied
Second Amendment challenge. Defendants rejoin that
Holloway has not met his burden at step one and that
the proscription of Section 922(g)(1) satisfies intermediate scrutiny because it is reasonably calculated to
advance the government’s substantial interest in public safety. Holloway seeks declaratory and permanent
injunctive relief.

App. 72
A. Step One of Marzzarella-Binderup Framework
Historically, persons convicted of a felony could be
stripped of their Second Amendment rights because
they ostensibly lacked “virtue.” Binderup, 836 F.3d at
348-49 (Ambro, J., plurality opinion); see id. at 397-98
(Fuentes, J. concurring in part, dissenting in part, and
dissenting in the judgments). This class of “unvirtuous
citizens” who may be deprived of their Second Amendment rights encompasses any individual who commits
“a serious criminal offense, violent or nonviolent.” Id.
at 348 (Ambro, J., plurality opinion). In evaluating
whether a crime is so “serious” as to impair Second
Amendment rights, courts should consider the following non-exhaustive list of factors: first, whether the
state offense is classified as a felony or misdemeanor;
second, whether actual or attempted violence is an
offense element; third, the severity of the sentence actually imposed; and fourth, whether there is crossjurisdictional consensus on the “seriousness” of the
offense. Id. at 351-53 (Ambro, J., plurality opinion). No
one factor is dispositive. An offense within the ambit of
Section 922(g)(1) is presumptively disqualifying unless
the challenger presents a “strong reason” to conclude
otherwise. Id. at 351.
1. Binderup Factors
As previously noted, Pennsylvania punishes a
second DUI offense at the “highest rate of alcohol,” as
a misdemeanor of the first degree. 75 PA. CONS. STAT.

App. 73
§ 3803(b)(4). Defendants argue that relying solely on
the crime’s label “elevate[s] form over substance,” (Doc.
61 at 16-17), because Pennsylvania prescribes a maximum possible sentence of five years’ imprisonment for
a misdemeanor of the first degree, 18 PA. CONS. STAT.
§ 1104(1). The maximum possible punishment is “certainly probative” of the offense’s seriousness, but its
classification as a misdemeanor by a state legislature
“is a powerful expression of its belief that the offense
is not serious enough to be disqualifying.” Binderup,
836 F.3d at 351-52 (Ambro, J., plurality opinion). Moreover, in Binderup, the Third Circuit did not find the
plaintiffs’ respective maximum possible sentences of
three and five years to be dispositive. See id. at 340; id.
at 351-52 (Ambro, J., plurality opinion).
Notwithstanding defendants’ contention that
Holloway’s crime of conviction was dangerous, under
Pennsylvania law, actual or attempted violence is not
an element of driving under the influence at the highest rate of alcohol. See 75 PA. CONS. STAT. § 3802(c). The
offense is therefore nonviolent, despite its potential for
perilous and often tragic outcomes. See Binderup, 836
F.3d at 352 (Ambro, J., plurality opinion). Defendants
implicitly concede that this factor weighs in Holloway’s
favor. (See Doc. 61 at 15).
The parties vigorously dispute the proper weight
the court should ascribe to the sentence imposed on
Holloway. The government correctly notes that Holloway’s sentence was “more severe” than those of the
Binderup plaintiffs, neither of whom served any jail
time. (Doc. 78 at 4 (quoting Binderup, 836 F.3d at 352

App. 74
(Ambro, J., plurality opinion))). However, one Binderup
plaintiff did receive a suspended sentence of 180 days’
imprisonment, reflecting discretionary authority that
Holloway’s sentencing judge lacked. Compare Binderup,
836 F.3d at 352 (Ambro, J., plurality opinion) with 75
PA. CONS. STAT. § 3804(c)(2)(i). Without discounting
the significance of 90 days’ imprisonment, Holloway’s
sentence was relatively minor as compared to both the
threshold term of imprisonment of more than one year
defined in 18 U.S.C. § 922(g), and the maximum possible punishment of five years’ imprisonment he faced
under Pennsylvania law. See 18 PA. CONS. STAT.
§ 1104(1). Holloway’s participation in the work release
program is of particular note. (See Doc. 61-1 ¶¶ 25-26).
A sentencing judge has discretion to assign an individual convicted of a DUI offense to a daytime work
release program. See 75 PA. CONS. STAT. § 3813. Holloway’s assignment to such a program undergirds the
relatively minor nature of his sentence and suggests
that the sentencing judge did not find Holloway to pose
a significant risk to public safety.
All 50 states criminalize driving with a BAC of .08
percent or higher. (Doc. 61-1 ¶ 56). But in determining
whether a cross-jurisdictional consensus existed as to
the seriousness of the offenses at issue in Binderup,
the Third Circuit also considered how many states prescribed a maximum sentence that “meet[s] the threshold of a traditional felony (more than one year in
prison).”6 Binderup, 836 F.3d at 352-53 (Ambro, J.,
6

The Binderup court provided no precise definition as to
what constitutes a “cross-jurisdictional consensus.” See Binderup,

App. 75
plurality opinion). Beyond its uniform illegality, the
manner in which a DUI offense is punished varies by
state and depends on a multitude of factors. In this
case, salient sentencing factors from state to state are
the BAC level and the number of prior offenses. Defendants maintain that there is a cross-jurisdictional
consensus as to the severity of Holloway’s conduct.7
Holloway’s 2005 DUI conviction was his second offense within three years and he had a BAC of .192 percent. For a second DUI offense, 40 states prescribe a
maximum term of imprisonment of one year or less.
(See Doc. 58-4 at 7-31). Ten states enforce a maximum
term of imprisonment of more than one year for a
second DUI offense, (id. at 9-10, 13, 15-16, 21-23, 28),
only four of which classify the second DUI offense as a
felony, (id. at 9, 13, 21, 23). Defendants note that 48
states impose enhanced penalties for DUI offenses
when the driver’s BAC exceeds a “particularly high
threshold.” (Doc. 58 ¶ 58; Doc. 61 at 21). These enhanced penalties for elevated BAC levels include
increased fines, license suspension, installation of
836 F.3d at 352-53 (Ambro, J., plurality opinion). Nevertheless,
for the reasons discussed infra, we find that the number of states
that punish a second DUI conviction as a serious offense falls well
short of a consensus.
7
In support of their position, defendants assert that “[f ]ortysix states punish DUIs as felonies on a first or subsequent conviction.” (Doc. 61 at 21). This statement is rather misleading. Not a
single state punishes a first DUI offense as a felony, and only
three states impose a maximum possible sentence greater than
one year’s imprisonment. (See Doc. 58-4 at 7-31); see also MASS.
GEN. LAWS ANN. ch. 90, § 24(1)(a)(1); N.C. GEN. STAT. ANN. § 20179(f3); VT. STAT. ANN. tit. 23, § 1210(b).

App. 76
ignition interlock devices, and heightened minimum
terms of imprisonment. (See Doc. 58-4 at 7-31). However, only three states increase the maximum possible
term of imprisonment above one year for a BAC of .16
or higher during a second offense. (Doc. 58-4 at 12, 24,
26). The government has not shown there is a consensus regarding the seriousness of a generic second DUI
offense, let alone a second DUI offense at a high rate of
alcohol.
2. Additional Factors
The parties urge the court to consider two additional factors in evaluating the seriousness of Holloway’s offense. Holloway contends that, under
Pennsylvania law, he would not be prohibited from
owning a firearm after a second DUI offense at the
highest rate of alcohol. (Doc. 59 at 13-14). Defendants
contend that Holloway’s DUI offense evinces a manifest disregard for the safety of others. (Doc. 61 at 2223). We take these arguments in turn.
Under Pennsylvania law, a person who has three
or more DUI convictions within a five-year period is
prohibited from transferring or purchasing firearms.
18 PA. CONS. STAT. § 6105(c)(3) (citing 75 PA. CONS.
STAT. § 3802). This prohibition does not extend to firearms possessed prior to the third DUI conviction. Id.;
see Hamborsky v. Pa. State Police, No. 1359 C.D. 2016,
2017 WL 3122215, at *1 (Pa. Commw. Ct. July 24,
2017). Upon proper application, Pennsylvania courts
must grant firearm disability relief after a period of ten

App. 77
years to any person subject to the prohibition of Section 6105(c)(3). 18 PA. CONS. STAT. § 6105(e)(2). In enacting Section 6103(c)(3), it is unclear whether the
Pennsylvania General Assembly considered the federal firearms prohibition pursuant to 18 U.S.C. § 922(g),
or its interplay with Pennsylvania’s DUI offense classification and punishment scheme.8 Nevertheless, the
limited circumstances under which the Commonwealth prohibits DUI offenders from transferring
and purchasing new firearms suggests that it views
Holloway’s offense less seriously than defendants
claim.
It is beyond peradventure that driving under the
influence of alcohol significantly increases the likelihood of accidents and accident-related fatalities. In
2016 alone, there were over 10,000 fatalities nationwide stemming from alcohol-related driving accidents;
62 percent of drivers in those accidents had a BAC in
excess of the legal limit. (Doc. 61-2 at 100). And 67 percent of those 2016 alcohol-related driving fatalities
arose from accidents where at least one driver had a
BAC of .15 percent or higher. (Id. at 105). A study of
2007 motor-vehicle-accident data revealed that individuals with a BAC of .15 percent or higher were between approximately 112 and 200 times more likely to
be involved in any fatal motor vehicle accident depending on the age of the driver. (Doc. 61-3 at 43). Based on
8

Pennsylvania courts presume that the General Assembly
is “familiar with extant [state] law” when enacting legislation.
Com. v. Zortman, 611 Pa. 22, 23 A.3d 519, 525 (2011) (citing White
Deer Twp. v. Napp, 603 Pa. 562, 985 A.2d 745, 762 (2009)).

App. 78
these studies, defendants contend that recidivist
drunk driving evinces a manifest disregard for the
safety of others. (Doc. 61 at 22). The majority of states,
including Pennsylvania, require first time DUI offenders to attend a DUI or substance abuse program as
part of their sentence, rendering repeat offenses more
egregious. (See Doc. 58-4 at 7-31); 75 PA. CONS. STAT.
§ 3804(a)(1)(iii)-(iv). A second DUI offense, regardless
of BAC level, certainly demonstrates maladjustment
and a reckless disregard for the safety and well-being
of others.
3. Consideration of All Factors
After a careful weighing of the Binderup factors,
the court concludes that Holloway’s crime was not a
“serious offense” within the ambit of Section 922(g)(1).
A second DUI offense at the highest rate of alcohol, is
a misdemeanor under Pennsylvania law and no showing of violence or attempted violence is required for
conviction. All states take DUI offenses “seriously” by
criminalizing such conduct, but there is no cross-jurisdictional consensus on the seriousness of such an offense. Only a handful of states classify a second DUI
offense as a felony or impose a maximum penalty of
more than one year imprisonment. Fewer still increase
the maximum possible term of imprisonment above
one year when the offender drives at a high rate of
alcohol (BAC greater than .15 percent). Despite the
panoply of penalties available, the sentencing judge
chose not to impose a sentence above the mandatory

App. 79
minimum term of 90 days’ imprisonment and permitted Holloway to participate in a work release program.
Defendants’ proffered factors do not tip the scales
against Holloway. That driving under the influence is
risky behavior is undisputed. It places others in danger
of bodily harm. Yet only seven states permanently suspend a repeat DUI offender’s driving privileges, and
only after a third DUI conviction. (See Doc. 58-4 at 7,
10, 19, 22, 24, 28-29). The Commonwealth of Pennsylvania has clearly indicated that a repeat DUI offender
is not so unvirtuous that he or she must be disarmed
until a third DUI conviction in five years and, even
then, the disability has an automatic ten-year expiration date. Holloway has distinguished himself from the
class of persons historically barred from possessing a
firearm by establishing that his crime of conviction
was not sufficiently serious.
B. Step Two of Marzzarella-Binderup Framework
As a threshold matter, Holloway invites the court
to reject step two of the Marzzarella-Binderup framework entirely as inconsistent with Supreme Court
precedent, which purportedly rejects application of any
interest balancing to Second Amendment rights. (Doc.
59 at 18-19). He misapprehends the Court’s rejection
of “judicial interest balancing” as a means to determine the scope of the Second Amendment right. See
McDonald v. City of Chicago, 561 U.S. 742, 785 (2010)
(citing District of Columbia v. Heller, 554 U.S. 570,

App. 80
634-35 (2008)). In Heller, the Court critiqued the dissent’s application of a “judge-empowering” or “freestanding” interest-balancing inquiry to the “core
protection” of an enumerated constitutional right.
Heller, 554 U.S. at 634. Moreover, the dissent’s proposed “judicial interest balancing” was distinguishable
from the “traditionally expressed levels” of scrutiny—
rationale basis, intermediate scrutiny, and strict scrutiny. Id. The felon-in-possession ban “constrains the
rights of persons who, by virtue of their prior criminal
conduct, fall outside the core of the Second Amendment’s protections.” Binderup, 836 F.3d at 397-98
(emphasis added) (quoting Heller, 554 U.S. at 635)
(Fuentes, J. concurring in part, dissenting in part, and
dissenting in the judgments); see id. at 353-56 (Ambro,
J., plurality opinion). We will therefore apply step two
of the Marzzarella-Binderup framework.
At step two, the government bears the burden of
establishing that Section 922(g)(1) satisfies intermediate scrutiny.9 Id. at 353-56 (Ambro, J., plurality

9

Holloway argues in the alternative that strict scrutiny
should be applied at step two of the Marzzarella-Binderup framework. (See Doc. 59 at 19). As noted supra, the felon-in-possession
ban does not impact the core of the Second Amendment’s protections, to wit: the right of “law-abiding, responsible citizens” to
possess firearms for home defense. Binderup, 836 F.3d at 398
(quoting Heller, 554 U.S. at 635) (Fuentes, J. concurring in part,
dissenting in part, and dissenting in the judgments). Post Heller,
the Third Circuit continues to apply intermediate scrutiny to regulations that do not burden this core Second Amendment right.
See id. at 397-98 (citing Drake v. Filko, 724 F.3d 426, 435-36 (3d
Cir. 2013); Marzzarella, 614 F.3d at 96-97). We accordingly reject

App. 81
opinion); id. at 397-98 (Fuentes, J. concurring in part,
dissenting in part, and dissenting in the judgments).
Section 922(g)(1) survives intermediate scrutiny if the
government shows a “substantial fit” between the disarmament of the plaintiff and its compelling interest
in “preventing armed mayhem.” Id. at 353-56 (Ambro,
J., plurality opinion); see also id. at 397-98 (Fuentes, J.
concurring in part, dissenting in part, and dissenting
in the judgments). The government must present
“some meaningful evidence, not mere assertions,” to
substantiate its justification. Id. at 354 (Ambro, J.) (citation omitted).
The government has not satisfied its burden of
proving that disarmament of Holloway, and other individuals like him, will promote public safety. It relies
heavily on an expert report10 to support the proposition
that individuals like Holloway “are substantially more
likely to intentionally use firearms to harm others, inflict self-harm, and cause inadvertent harm.” (Doc. 61
at 25-27 (citing Doc. 61-4)). The expert report states
that individuals with alcohol dependency or abuse are
more prone to violence and cites one study that suggests just over 50 percent of DUI offenders were alcohol dependent. (Doc. 61-4 at 4-5 & n.8). It further notes
Holloway’s suggestion that strict scrutiny governs his as-applied
challenge to Section 922(g)(1).
10
Holloway urges the court to reject the expert report due to
various technical deficiencies including, inter alia, the absence of
the author’s signature and a list of the author’s previous publications. (Doc. 72 at 2-3). No ascertainable, material prejudice accrued from these deficiencies, and we will therefore consider the
report.

App. 82
that alcohol abuse is often comorbid with mental illness and is strongly linked with domestic violence,
youth violence, violent crime, and road rage. (Id. at 67). But nothing in the record suggests that Holloway
was ever diagnosed with or suffered from alcohol dependence, alcohol abuse, or mental illness. Moreover,
the report acknowledges that “it is not possible to determine with certainty whether these associations are
causal.” (Id. at 6).
The report further opines that laws prohibiting
“high risk” individuals from purchasing firearms reduce future violent and firearms-related offenses. (Id.
at 13-14). In support of this proposition, the report
cites two studies which collected data on individuals
with at least one prior misdemeanor conviction for a
crime of violence. (Id. at 13-14 & n.50) Both studies
found that barring said individuals from purchasing
firearms reduced the commission of future crimes involving firearms or violence, and intimate partner
homicides, respectively. (Id.) Defendants can draw no
reasonable conclusion from these studies about the
risk posed by Holloway’s potential possession of a firearm as his disqualifying misdemeanor was nonviolent.
One study identified by the report found 32.8 percent of handgun purchasers who had prior alcohol
convictions were arrested for a subsequent crime involving violence or firearms. (Id. at 9 & n.34). The
study’s regression analysis revealed that individuals
with just one prior alcohol-related conviction were four
times as likely to be arrested for a firearm-related offense or a crime of violence. (Id. at 10). The data set

App. 83
utilized by the study consists of persons who purchased a handgun from a California retail firearms
dealer in 1977. (Id. at 9). Without questioning the validity of the study’s methodology, we find that this
study alone does not adequately establish a substantial fit between Holloway’s disarmament and the government’s compelling interest in preventing armed
mayhem.
Holloway contends that the federal government’s
history of granting relief from federal firearms disabilities to deserving persons undercuts defendants’ arguments at step two. Prior to 1993, the United States
Attorney General had the authority to grant relief to
persons prohibited under federal law from obtaining
and possessing firearms. 18 U.S.C. § 925(c). The Attorney General could grant such relief if an applicant “established . . . that the circumstances regarding the
disability, and the applicant’s record and reputation,
are such that the applicant will not be likely to act
in a manner dangerous to public safety.” Id. In 1993,
Congress eliminated federal funding for investigations
and grants of relief pursuant to Section 925(c). See
United States v. Bean, 537 U.S. 71, 74-75 (2002) (citation omitted).
Holloway points to four individuals with criminal
behavior of a more severe character than his, and who
received firearm disability relief pursuant to Section
925(c), undermining the government’s contention that
individuals like Holloway should not retain Second
Amendment rights. (Doc. 59 at 22-26). At step two of
the Marzzarella-Binderup framework, the government

App. 84
must show a substantial, not perfect, fit between the
disarmament of Holloway and its compelling interest
in preventing armed mayhem. See Binderup, 836 F.3d
at 353-56 (Ambro, J., plurality opinion); see also id. at
397-98 (Fuentes, J. concurring in part, dissenting in
part, and dissenting in the judgments). The government’s decision to grant such relief to a particular individual does not alone indicate that disarming the
class of persons to which that individual belongs fails
to promote the responsible use of firearms. If Congress
continued to fund Section 925(c), Holloway might well
be a strong candidate for relief. But we do not find
these fact-intensive examples particularly persuasive.
Nevertheless, defendants’ evidence fails to account for key characteristics of Holloway and similarly
situated persons. They have presented no evidence indicating that individuals like Holloway—after over a
decade of virtuous,11 noncriminal behavior—“remain
[so] potentially irresponsible” that they should be prohibited from owning a firearm. See Binderup, 836 F.3d
at 356 (Ambro, J., plurality opinion). The government
has not demonstrated a substantial fit between Holloway’s continued disarmament and the important
government interest of preventing armed mayhem.

11

In the years following his second DUI conviction in 2005,
Holloway obtained his bachelor’s degree in psychology, worked as
an educator with juveniles housed in a residential treatment center, and was not criminally convicted of any state or federal offense. (See Doc. 58-3 ¶¶ 8-12).

App. 85
C. Permanent Injunctive Relief
Our inquiry does not end with a determination
that Holloway has prevailed on the merits of his asapplied Second Amendment challenge. Before the
court may grant permanent injunctive relief, Holloway
must prove: first, that he will suffer irreparable injury
absent the requested injunction; second, that legal
remedies are inadequate to compensate that injury;
third, that balancing of the respective hardships between the parties warrants a remedy in equity; and
fourth, that the public interest is not disserved by an
injunction’s issuance. See eBay Inc. v. MercExchange,
L.L.C., 547 U.S. 388, 391 (2006) (citations omitted).
The injury here is irreparable, as the deprivation
of a constitutional freedom “for even minimal periods
of time, unquestionably constitutes irreparable injury.”
Mills v. D.C., 571 F.3d 1304, 1312 (D.C. Cir. 2009) (quoting Elrod v. Burns, 427 U.S. 347, 373-74 (1976) (plurality opinion)); see also 11A CHARLES ALAN WRIGHT, ET
AL., FEDERAL PRACTICE AND PROCEDURE § 2948.1 (3d ed.
2013). Furthermore, sovereign immunity would bar
money damages claims against defendants in their
official capacities. Cooper v. Comm’r, 718 F.3d 216, 220
(3d Cir. 2013) (quoting United States v. Testan, 424 U.S.
392, 399 (1976)). Because there is no adequate legal
remedy to compensate Holloway’s constitutional injuries, declaratory and injunctive relief will ensure that
Holloway does not continue to suffer irreparable harm.
As to the respective hardships between the parties, we fail to ascertain any real hardship defendants

App. 86
would suffer from an award of permanent injunctive
relief. Defendants have identified none, save for their
arguments regarding the risk Holloway poses based on
his second DUI conviction, which we have squarely addressed. Holloway, per contra, would continue to suffer
the Second Amendment injury described in this opinion
if a permanent injunction were not granted. The balancing of hardships thus militates in favor of Holloway’s
requested injunction. Finally, we find the public interest is advanced, rather than disserved, by permanently
enjoining defendants from continued infringement of a
citizen’s constitutional rights. We will grant Holloway’s
request for permanent injunctive relief.
IV. Conclusion
Section 922(g)(1) is unconstitutional as applied to
Holloway. Holloway’s disqualifying conviction was not
sufficiently serious to warrant deprivation of his Second
Amendment rights, and disarmament of individuals
such as Holloway is not sufficiently tailored to further
the government’s compelling interest of preventing
armed mayhem. The court will grant summary judgment, declaratory judgment, and permanent injunctive
relief to Holloway. An appropriate order shall issue.
/s/ Christopher C. Conner
Christopher C. Conner, Chief Judge
United States District Court
Middle District of Pennsylvania
Dated:

September 28, 2018

App. 87
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 18-3595
-----------------------------------------------------------------------

RAYMOND HOLLOWAY, JR.
v.
ATTORNEY GENERAL UNITED STATES OF
AMERICA; DEPUTY DIRECTOR BUREAU
OF ALCOHOL TOBACCO FIREARMS &
EXPLOSIVES; DIRECTOR FEDERAL BUREAU OF
INVESTIGATION; UNITED STATES OF AMERICA,
Appellants
-----------------------------------------------------------------------------------------------------------

(D.C. No. 1-17-cv-00081)
-----------------------------------------------------------------------

SUR PETITION FOR REHEARING
-----------------------------------------------------------------------

(Filed Jul. 8, 2020)
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN, HARDIMAN, GREENAWAY, JR.,
SHWARTZ, KRAUSE, RESTREPO, BIBAS, PORTER,

App. 88
MATEY, PHIPPS, *FUENTES, and *FISHER, Circuit
Judges
The petition for rehearing filed by Appellee in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit in regular active service, and no judge who concurred in the decision having asked for rehearing, and
a majority of the judges of the circuit in regular service
not having voted for rehearing, the petition for rehearing by the panel and the Court en banc, is denied.
BY THE COURT,
s/Patty Shwartz
Circuit Judge
Date: July 8, 2020
CJG/cc: Adam J. Kraut, Esq.
Joshua Prince, Esq.
Thais-Lyn Trayer, Esq.
Tyce R. Walters, Esq.
Joseph G. S. Greenlee, Esq.

* Hon. Julio M. Fuentes and Hon. D. Michael Fisher votes
are limited to panel rehearing only.

App. 89
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 18-3595
-----------------------------------------------------------------------

RAYMOND HOLLOWAY, JR.
v.
ATTORNEY GENERAL UNITED STATES OF
AMERICA; DEPUTY DIRECTOR BUREAU OF
ALCOHOL TOBACCO FIREARMS & EXPLOSIVES;
DIRECTOR FEDERAL BUREAU OF
INVESTIGATION; UNITED STATES OF AMERICA,
Appellants
-----------------------------------------------------------------------

(D.C. No. 1-17-cv-00081)
-----------------------------------------------------------------------

SUR PETITION FOR REHEARING
-----------------------------------------------------------------------

(Filed Jul. 9, 2020)
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, **JORDAN, **HARDIMAN, GREENAWAY, JR.,
SHWARTZ, KRAUSE, RESTREPO, BIBAS, PORTER,

* Hon. Julio M. Fuentes and Hon. D. Michael Fisher votes
are limited to panel rehearing only.
** Hon. Kent A. Jordan, Hon. Thomas M. Hardiman, Hon.
Paul B. Matey, and Hon. Peter J. Phipps would have granted the
petition.

App. 90
**MATEY, **PHIPPS, *FUENTES, and *FISHER,
Circuit Judges
The petition for rehearing filed by Appellee in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit in regular active service, and no judge who concurred in the decision having asked for rehearing, and
a majority of the judges of the circuit in regular service
not having voted for rehearing, the petition for rehearing by the panel and the Court en banc, is denied.
BY THE COURT,
s/ Patty Shwartz
Circuit Judge
Date: July 9, 2020
CJG/cc:
Adam J. Kraut, Esq.
Joshua Prince, Esq.
Thais-Lyn Trayer, Esq.
Tyce R. Walters, Esq.
Joseph G. S. Greenlee, Esq.

App. 91
U.S. Const. amend. II:
A well regulated Militia, being necessary to the
security of a free State, the right of the people to keep
and bear Arms, shall not be infringed.
18 U.S.C. § 921(a)(20):
(a)

As used in this chapter—
*

*

*

(20) The term “crime punishable by imprisonment for a term exceeding one year” does not include—
(A) any Federal or State offenses pertaining
to antitrust violations, unfair trade practices,
restraints of trade, or other similar offenses
relating to the regulation of business practices, or
(B) any State offense classified by the laws
of the State as a misdemeanor and punishable
by a term of imprisonment of two years or
less.
What constitutes a conviction of such a crime
shall be determined in accordance with the
law of the jurisdiction in which the proceedings were held. Any conviction which has been
expunged, or set aside or for which a person
has been pardoned or has had civil rights restored shall not be considered a conviction for
purposes of this chapter, unless such pardon,
expungement, or restoration of civil rights

App. 92
expressly provides that the person may not
ship, transport, possess, or receive firearms.
18 U.S.C. § 922(g)(1):
(g)

It shall be unlawful for any person—
(1) who has been convicted in any court of, a
crime punishable by imprisonment for a term
exceeding one year;
*

*

*

to ship or transport in interstate or foreign
commerce, or possess in or affecting commerce, any firearm or ammunition; or to receive any firearm or ammunition which has
been shipped or transported in interstate or
foreign commerce.
18 U.S.C. § 924(a)(2):
Whoever knowingly violates subsection (a)(6), (d),
(g), (h), (i), (j), or (o) of section 922 shall be fined as provided in this title, imprisoned not more than 10 years,
or both.
18 Pa. Cons. Stat. § 1104(1):
A person who has been convicted of a misdemeanor may be sentenced to imprisonment for a definite term which shall be fixed by the court and shall be
not more than:

App. 93
(1) Five years in the case of a misdemeanor of the
first degree.
75 Pa. Cons. Stat. § 3802(c):
An individual may not drive, operate or be in actual physical control of the movement of a vehicle after
imbibing a sufficient amount of alcohol such that the
alcohol concentration in the individual’s blood or
breath is 0.16% or higher within two hours after the
individual has driven, operated or been in actual physical control of the movement of the vehicle.
75 Pa. Cons. Stat. § 3804(c)(2):
(c) Incapacity; highest blood alcohol; controlled substances.—An individual who violates
section 3802(a)(1) and refused testing of breath
under section 1547 (relating to chemical testing to
determine amount of alcohol or controlled substance) or testing of blood pursuant to a valid
search warrant or an individual who violates section 3802(c) or (d) shall be sentenced as follows:
*
(2)

*

*

For a second offense, to:
(i) undergo imprisonment of not less
than 90 days;
(ii)

pay a fine of not less than $1,500;

(iii) attend an alcohol highway safety
school approved by the department; and

App. 94
(iv) comply with all drug and alcohol
treatment requirements imposed under
sections 3814 and 3815.

